GSA's SIGNIFICANT MANAGEMENT CHALLENGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and
discussed in this semiannual report.




PROTECTION OF              GSA is responsible for protecting the life and safety        2-6
FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

MANAGEMENT                 Management controls have been streamlined, resulting         6-14
CONTROLS                   in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and consistently
                           followed.

PROCUREMENT                Simplified processes have reduced order and delivery         14-15,
ACTIVITIES                 time, yet competitive principles are not always followed     23-28
                           and opportunities may be missed for less costly services
                           and products.

INFORMATION                Technology applications have increased exponentially         16-20
TECHNOLOGY                 as "E-Gov" is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

HUMAN CAPITAL              GSA's corporate knowledge is eroding and efforts to          21 -22
                           obtain requisite skills for the future are impeded. Better
                           recruitment and training programs are needed to
                           develop the 21 st century workforce.

AGING FEDERAL              GSA is being challenged to provide quality space to          No
BUILDINGS                  Federal agencies using an aging, deteriorating inventory     Reports
                           of buildings and facing critical budgetary limitations in    This
                           its modernization program.                                   Period
           Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the 6-month reporting period that ended September 30, 2002.

During the past 6 months, we continued to work with GSA to identify
business management and operational improvements in the Agency’s
programs and operations. We issued a number of reports focusing on the
major management issues facing the Agency, including building security,
management controls, procurement activities, information technology, and
human capital. In the vital area of security, we reported that although we
have seen substantial improvements in GSA's overall security program, there
are continuing problems which must be corrected and management still faces
many challenges.

During this period, two other areas of concern emerged which will require
future attention. First, in light of the possible transfer of the Federal
Protective Service to the proposed Department of Homeland Security, based
on the many reviews we have conducted in this area over recent years, we
identified a number of critical issues that will need to be addressed to ensure
the proper integration of building security with other essential elements of
building operations. The proposed transfer raises questions concerning lines
of responsibility for government building security, guard contract
administration, and the funding of security-related activities. Second, we
have seen an increase in contract administration deficiencies in our audit
report findings. This is a matter of particular concern in view of the growing
reliance on contractors to carry out Agency activities.

We identified over $142 million in financial recommendations on how funds
could be put to better use and in other program savings. We made
215 referrals for criminal prosecution, civil litigation, and administrative action.
Criminal cases originating from OIG referrals resulted in 19 successful
prosecutions. For fiscal year 2002 as a whole, we achieved over
$242 million in savings from management decisions on audit financial
recommendations and investigative recoveries.

I want to express my appreciation to Congress, as well as the senior
management of the Agency, for their support over this past year to the
mission of this Office. I also want to express my appreciation for the
accomplishments of all OIG employees and commend them for their
continued professionalism, dedication, and willingness to accept new
challenges.




Daniel R. Levinson
Inspector General
October 31, 2002
     Table of Contents




                                                                                          Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2002 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . .2

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16

  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . .23

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . .32

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . .36

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . .39

Appendices

Appendix I–Significant Audits from Prior Reports . . . . . . . . . . . . . .47

Appendix II–Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .50

Appendix III–Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .59

Appendix IV–Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .72

Appendix V–Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .73



This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                                   Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     April 1, 2002 - September 30, 2002

                        Total financial recommendations                              $143,090,809

                        These include:

                        • Recommendations that funds be put to better use            $142,001,646

                        • Questioned costs                                            $1,089,163

                        Audit reports issued                                               88

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                             215

Results Attained        Management decisions agreeing with audit
                        recommendations; civil settlements; and
                        court-ordered and investigative recoveries                   $134,705,742

                        Indictments and informations on criminal referrals                 23

                        Cases accepted for criminal prosecution                            28

                        Cases accepted for civil action                                     6

                        Successful criminal prosecutions                                   19

                        Civil settlements                                                   4

                        Contractors/individuals debarred                                   33

                        Contractors/individuals suspended                                  11

                        Employee actions taken on administrative referrals
                        involving GSA employees                                            17




                                                                        Office of Inspector General v
                                       Fiscal Year 2002 Results




                                       During Fiscal Year (FY) 2002, OIG activities resulted in:

                                       • Over $226 million in recommendations that funds be put to better use
                                         and in questioned costs. If adopted, these recommendations ultimately
                                         result in savings for the taxpayer.

                                       • 158 audit reports that assisted management in making sound decisions
                                         regarding Agency operations.

                                       • 3 implementation reviews that tracked the progress of actions in
                                         response to internal audit reports.

                                       • $242 million in management decisions agreeing with audit
                                         recommendations; civil settlements; and court-ordered and
                                         investigative recoveries.

                                       • 195 new investigations opened and 213 cases closed.

                                       • 52 case referrals (82 subjects) accepted for criminal prosecution and
                                         13 case referrals (19 subjects) accepted for civil litigation.

                                       • 41 criminal indictments/informations and 50 successful prosecutions on
                                         criminal matters referred.

                                       • 5 civil settlements.

                                       • 34 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 49 contractor/individual suspensions and 57 contractor/individual
                                         debarments.

                                       • 473 legislative matters and 54 regulations and directives reviewed.

                                       • 1,921 Hotline calls and letters received of which 258 warranted further
                                         GSA action.




vi Semiannual Report to the Congress
                             Executive Summary




                           During this period, the OIG continued to direct its audit, investigative, and
                           evaluative resources to activities that address what we believe to be the
                           major management challenges facing the Agency. We provided a variety
                           of services designed to help the Agency address these challenges and to
                           improve operations. These services included program evaluations,
                           contract and financial auditing, and management control reviews;
                           investigative coverage and litigation support in contract claims, civil fraud
                           and enforcement actions, and criminal prosecutions; and reviews of
                           proposed legislation and regulations.

                           In light of recent changes to the Government Auditing Standards, we
                           ceased accepting consulting assignments, however, we did provide best
                           practices reviews and ex officio participation on Agency improvement task
                           forces, committees, and working groups.

                           Management Challenges
                           We have highlighted a number of reviews that address major
                           management issues facing GSA. Some of these challenges are in the
                           areas of Federal facilities and personnel protection, management
                           controls, procurement activities, information technology (IT), and human
                           capital. Our efforts during this period focused on the following:

                           Protection of Federal Facilities and Personnel
                           We are continuing our assessment of the physical security program
                           managed by GSA’s Federal Protective Service (FPS). We completed a
                           review of the Contract Guard Program to update the status of
 Contract Guard Program    management’s ongoing implementation of recommendations contained in
                           a previous audit report. While management has made some
                           improvements, the program continues to experience weaknesses that
                           must be overcome (page 2).

                           The President announced his intent to transfer FPS to a new Department
Proposed FPS transfer to   of Homeland Security. To assist, we prepared a report identifying critical
         DHS               operational issues we believe need to be addressed as part of the
                           proposed transfer. These issues include:

                           • determining responsibility for government building security;

                           • assigning responsibility for the administration of the Contract Guard
                             Program;

                           • ensuring GSA is promptly notified of threats to its buildings; and

                           • establishing means for recovering security costs (page 3).




                                                                            Office of Inspector General vii
                                           Executive Summary




                                         In another security-related review, we reported our concerns that GSA
                                         managers are not ensuring that certain types of contractor employees —
     Security clearances                 security guards, employees of janitorial and maintenance contractors, and
                                         contractors working on the Agency’s computer information systems —
                                         have appropriate security background checks (page 5).

                                         Management Controls
                                         GSA adopted an employee award system that recognizes specific acts at
                                         the time of their occurrence rather than tying rewards to the annual rating
                                         process. Also, in order to streamline operations and empower
      Awards program                     employees, GSA removed multiple approval layers needed to issue cash
                                         and time-off awards. We examined the policies, procedures, and
                                         operations of the GSA Awards Program and found instances of award
                                         overuse, inappropriate salary augmentation associated with repetitive
                                         awards to the same individuals, and disregard for existing approval
                                         authorities. During our fieldwork, the GSA Administrator requested
                                         management to fully assess the program (page 7).

                                         In previous semiannual reports, we have addressed many of the
                                         challenges facing GSA when processing financially-related transactions
     Billing and payment                 for its varied programs. This period, our review of the Internet-based
            systems                      FTS2001 billing system showed that the Federal Technology Service
                                         could improve billing processes and customer relationships by
                                         maintaining accurate and complete client information (page 8). Also, we
                                         completed three other reviews that addressed management controls
                                         (page 9).

                                         Recently, we have noticed that contract administration issues are more
                                         frequently being raised in our audits. While such conditions may not be
                                         new, there exists a trend that, if allowed to continue, could lead to
  Contract administration                significant problems. With GSA’s rapidly increasing reliance on
          issues                         contractors to perform many of the functions now provided by
                                         government employees, the importance of contract administration will
                                         grow considerably. Understandably, if the weaknesses exist now, GSA
                                         needs to undertake corrective measures before the workload increases
                                         (page 9).

                                         In a series of other reviews, we found that:

                                         • Management officials in one region certified payments for guard
                                           services without adequate assurance that services required by the
                                           contract had been provided. Almost half of the billings, valued at
                                           $617,167 were not supported by sufficient documentation (page 11).

                                         • In another region, contractors were not being timely paid because the
                                           contracting officials were too overworked/understaffed to review all



viii Semiannual Report to the Congress
                              Executive Summary




                              documentation and were late in certifying invoices for payment.
                              Seven contractors reported that GSA’s overdue payments totaled about
                              $1.9 million. One contractor claimed to be in danger of fiscal collapse
                              because GSA owed it $1.5 million as of February 2001 (page 11).

                            • Other regional reports discussed control weaknesses within local
                              operations (pages 12-14).

                            Procurement Activities
                            The Federal Acquisition Regulation (FAR) requires that contracting
                            officials provide file documentation that each step of the acquisition
                            process is complete. However, in one review we conducted, we found
    Procurement             pricing was not adequately substantiated in the majority of contract files
    deficiencies            sampled. This was due to an unusually high staff turnover rate and a
                            large number of inexperienced contracting officers. We also identified
                            three procurement actions that require ratification by a contracting officer
                            because the awards were made by officials who were not authorized to
                            do so (page 14).

                            Although the FAR specifies that contracts may be awarded to responsible
                            contractors only, the determination of responsibility is a judgment made
                            by the contracting officer based on general guidelines. Our review found
                            that GSA needs to improve the process for analyzing relevant
                            information; contracting officers need to better document their rationale
                            and specific information considered in making responsibility
                            determinations (page 15).

                            Information Technology
                            We performed an evaluation of GSA’s Agency-wide information security
                            program and controls as required by the Government Information Security
                            Reform Act (GISRA). Our assessment on security aspects of six major IT
   Information security     systems that support the operations of the GSA Services and Staff Offices
                            found higher levels of security control in place than in the prior year’s
         program
                            review. Six of the previously cited 14 weaknesses were reported as
                            having been corrected. Actions to correct the remaining eight
                            weaknesses depend upon the completion of the revisions to GSA’s IT
                            Security Policy. We also determined that the GISRA required Plan of
                            Actions and Milestones at the system level have not been completed and
                            are not being used to prioritize, track, and manage GSA’s efforts to close
                            security performance gaps (page 16).

                            GSA’s Finance Center provides accounting and financial services to GSA
FEDdesk’s online services   as well as 17 other Federal agencies. In 1994, the Finance Center
                            developed the FEDdesk platform to provide easy online access for
                            various administrative functions. While FEDdesk has been in operation




                                                                             Office of Inspector General ix
                                        Executive Summary




                                      for over 6 years, GSA has not completed a full-risk assessment, which
                                      would assess the security requirements, customer needs, and operations.
                                      It would also help to ensure the integrity, reliability, and accuracy of the
                                      transactions that are processed through the interface (page 17).

                                      Our review of GSA’s e-mail system showed that the Agency has
                                      implemented effective firewall procedures to prevent viruses and block
        E-mail system                 unwanted mail. However, we did note opportunities to improve e-mail
                                      security and controls. In addition, GSA’s contingency plan did not
                                      adequately address the actions the Chief Information Officer would need
                                      to take to restore operability in the event of major disruptions (page 19).

                                      Human Capital
                                      The Federal Activities Inventory Reform (FAIR) Act requires Federal
                                      agencies to annually identify any commercial activities they perform and
                                      consider these for competition with the private sector. We found
                                      inconsistencies in how activities were being classified, particularly with
                                      respect to whether an activity should be classified as inherently
                                      governmental or commercial. We provided GSA with examples used by
FAIR Act inventory process            other Federal agencies to successfully fulfill not only the FAIR Act
                                      requirements but also the President’s Management Agenda initiatives.
                                      We also recommended that the Chief Financial Officer (CFO) formalize
                                      the way guidance is issued and that guidance be Agency-specific. In
                                      addition, we recommended that the CFO develop an oversight process to
                                      review inventory data at all levels (page 21).

                                      Promoting and Protecting Integrity
                                      In our ongoing efforts to promote and protect the integrity of GSA’s
                                      programs and operations, we conducted criminal and civil fraud
                                      investigations that resulted in a number of enforcement actions.
                                      Highlights follow:

                                      • Two Federal Protective Service (FPS) supervisory officers were
                                        convicted of altering/falsifying police incident reports in order to support
                                        nationwide pay grade increases for FPS officers (page 23).

                                      • A $1,690,000 judgment was entered against Pi Construction
                                        Corporation in a qui tam False Claims Act lawsuit for misrepresenting
                                        its eligibility to participate as an 8(a) contractor (page 24).

                                      • AMEC Construction Management, Inc., and AMEC, plc., its British
                                        parent company, were debarred for 1 year by GSA’s Office of
                                        Acquisition Policy based on multiple convictions for making false
                                        claims in connection with the submission of falsified invoices for bond
                                        premiums on two major GSA construction projects (page 24).



x Semiannual Report to the Congress
  Executive Summary




• Three GSA temporary employees were convicted of theft of
  government funds after falsifying their time cards and forging the
  signature of a GSA building management official in order to receive
  payments for overtime hours not worked. Their claims totaled in
  excess of $64,000 (page 25).

• A moving company fraudulently billed the government for contract
  moves. Two company officials pled guilty to mail fraud and were
  sentenced to probation and ordered to pay restitution (page 25).

• An individual who represented himself as a GSA employee pled guilty
  to mail fraud, interstate transportation of fraudulently obtained property,
  and aiding and abetting (page 25).

• A GSA employee resigned his position as a transportation operations
  specialist and subsequently pled guilty to theft of government funds
  (page 26).

• Two individuals pled guilty to defrauding other persons through the use
  of stolen credit cards, including GSA charge cards (page 26).

• An individual was convicted of identity theft after a GSA employee
  reported that her personal identifiers, such as date of birth, social
  security number, and address, were used to commit a crime
  (page 27).

Summary of Results
The OIG made over $142 million in financial recommendations to better
use government funds; made 215 referrals for criminal prosecution, civil
litigation, and administrative actions; reviewed 301 legislative and
regulatory actions; and received 1,008 Hotline calls and letters. For
FY 2002 as a whole, we achieved savings from management decisions
on financial recommendations and investigative recoveries totaling over
$242 million. (See page v for a complete summary of this period’s
performance.)




                                                 Office of Inspector General xi
Office of Inspector General xiii
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, assessment of management
                        controls, and financial and compliance audits. The office also conducts
                        external reviews in support of GSA contracting officials to ensure fair
                        contract prices and adherence to contract terms and conditions. The
                        office additionally provides research, benchmarking, and other services
                        to assist Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review and Congressional liaison functions.

                      • The Internal Evaluation Staff, an analytical staff that provides
                        coverage of OIG operations primarily through management
                        assessments, and conducts criminal and non-criminal investigations
                        and sensitive reviews at the direction of the Inspector General.

                      • The Office of Administration, an in-house staff that provides
                        information technology systems, budgetary, administrative, personnel,
                        and communications services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s National Office
                      Building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in
                      Auburn and Cleveland.

Staffing and Budget   As of September 30, 2002, our on-board strength was 291 employees.
                      The OIG’s Fiscal Year (FY) 2002 budget was $36.3 million.




                                                                      Office of Inspector General 1
                                      Management Challenges




                                      Each year since 1998, we have identified and shared with Congress and
                                      senior management what we believe to be the major challenges facing
                                      the Agency. This period we continued our work in addressing these
                                      challenges, making recommendations, and working with management to
                                      improve Agency operations. The following sections highlight our activities
                                      in some of these areas.

                                      Protection of Federal Facilities and Personnel
                                      Providing a safe, healthful, and secure environment for over 1 million
                                      workers and the visitors to over 8,300 owned and leased Federal facilities
                                      nationwide is a major multifaceted responsibility of GSA. In recent years,
                                      the increased risks from terrorism have greatly expanded the range of
                                      vulnerabilities traditionally faced by building operations personnel. The
                                      complexities involved in establishing a broadly integrated safety/security
                                      program — and the importance of these issues — make this a major
                                      challenge.

                                      Security in Federal Facilities
                                      The OIG has been continuously involved in the assessment of the
                                      physical security program managed by GSA’s Federal Protective Service
                                      (FPS). We have supported the Agency in its efforts to implement new
                                      security standards developed after Oklahoma City, by performing, in a
                                      systematic manner, detailed reviews of the major elements of the overall
    Over 25 reports                   security program. To date, we have issued more than 25 audit and
  issued that address                 special alert reports recommending improvements in all aspects of the
                                      physical security program.
  physical security in
   Federal buildings.                 While we have seen substantial improvements in the overall security
                                      program since we started our evaluation work, both we and GSA
                                      management are aware that the program still faces many challenges —
                                      challenges that have been greatly expanded in nature and dimension by
                                      recent terrorists events.

                                      In October 2001, the Inspector General and the GSA Administrator
                                      agreed that the most meaningful way that the OIG could assist GSA
                                      would be for our office to expeditiously conduct a nationwide review of the
                                      operational readiness of building security systems. In the last semiannual
                                      report, we highlighted our review on the operational status of security
                                      equipment countermeasures installed at Federal facilities by the FPS.
                                      This period, we completed a review of the Contract Guard Program to
                                      update the status of management’s ongoing implementation of
                                      recommendations contained in a previous audit report.

                                      The President’s proposal to establish the Department of Homeland
                                      Security (DHS) includes the transfer of FPS to the new department.
                                      While the proposed legislation is still before the Congress, we prepared a


2 Semiannual Report to the Congress
                    Management Challenges




                    Protection of Federal Facilities and Personnel (continued)

                    transition paper to discuss critical operational issues facing GSA and the
                    Department of Homeland Security with the proposed transfer of FPS.
                    Finally, we conducted a review of security background checks.

                    Contract Guard Program
                    The second phase of our nationwide review addressed the operation of
                    the Contract Guard Program. FPS uses approximately 7,000 contract
                    guards in and around Federal buildings as an integral part of GSA’s
                    security program to help ensure the physical safety of government
                    employees and building visitors. The guards are deployed at roving and
                    fixed posts, where they often operate security-screening devices such as
                    magnetometers and X-ray machines. With annual obligations of about
                    $144 million, contract guard services represent the single largest item in
                    the overall FPS operating budget. Our prior audit of the guard program
                    issued in March 2000 reported significant deficiencies.

                    Management has been implementing measures to address the
                    recommendations contained in our report. However, in our follow-up
While there have    report issued August 29, 2002, we noted that while management has
   been some        made some improvements, the Contract Guard Program continues to
 improvements,      experience shortcomings in performance:
inconsistent and    • guards on post without valid background suitability determinations;
   inadequate
 oversight of the   • guards lacking training to perform their duties;
 Contract Guard     • armed guards on post without valid firearm qualifications; and
Program remains
    an issue.       • guards without weapons stationed at designated armed posts.

                    These deficiencies remain despite Central Office measures to strengthen
                    the Contract Guard Program by establishing minimum training standards
                    and national certification guidelines for all GSA guard contracts. The
                    primary cause continues to be inconsistent and inadequate regional
                    oversight and a lack of effective contract enforcement.

                    President Bush Proposes to Transfer the Federal Protective Service
                    to the Homeland Security Administration
                    On June 6, 2002, President Bush proposed the creation of a new cabinet-
                    level Department of Homeland Security (DHS). The President proposed
                    transferring FPS to the Border and Transportation Division of the new




                                                                     Office of Inspector General 3
                                      Management Challenges




                                      Protection of Federal Facilities and Personnel (continued)

                                      Department. In anticipation of that transfer, we prepared a report
                                      summarizing critical operational issues identified in numerous past OIG
                                      reports, as well as forward looking issues impacting GSA and the
                                      proposed DHS. Some of these issues include:

                                        Building Security System Operations and Implementation
  Critical operational
                                        •    Inventory of security screening devices may not be accurate.
   issues need to be
  addressed with the                    •    There is no nationwide plan to address equipment obsolescence.
  proposed transfer                     •    Installation of shatter resistant material, such as Mylar film, on all
     of the Federal                          exterior windows is a slow process due to extremely high cost.
  Protective Service                         PBS currently manages this initiative.
  to the Department                     •    Will GSA or DHS be responsible for installing and maintaining
      of Homeland                            capital equipment, e.g., physical barrier and access systems and
        Security.                            security cameras, that must be tied into building electrical and
                                             mechanical systems and conform to applicable building codes?

                                        Contract Guard Program

                                        •    Guard services program weaknesses need to be addressed.

                                        •    FPS may need to confirm validity of work permits since GSA
                                             contracting officers can allow a legal resident alien to work under
                                             a contract, a practice that might not be acceptable under DHS.

                                        •    According to a GSA official, FPS intends to use a Transportation
                                             Security Administration (TSA) contractor to train guards who
                                             operate magnetometers and x-ray screening devices. Current
                                             FPS training requirements are less stringent than TSA
                                             requirements.

                                        Intelligence Sharing and Law Enforcement Concerns

                                        •    FPS Criminal investigators participate in the FBI’s Joint Terrorism
                                             Task Force, ensuring that GSA is promptly notified of threats to
                                             buildings it controls. How will this critical liaison continue?

                                        •    Will DHS inherit GSA’s legal jurisdiction to enforce Federal laws
                                             and building rules and regulations on GSA-controlled property?
                                             Will FPS still address thefts and similar crimes at GSA-controlled
                                             property, including leased locations? In the past, some local law
                                             enforcement authorities have been reluctant to investigate
                                             incidents occurring on government property.

4 Semiannual Report to the Congress
                      Management Challenges




                      Protection of Federal Facilities and Personnel (continued)

                        General Concerns

                        •    GSA will have to identify an alternative means for conducting
                             background suitability checks for child care workers and contract
                             employees.

                        •    DHS will have to establish means for recovering security costs.
                             The Public Buildings Service (PBS) currently subsidizes security
                             through the Federal Building Fund. OMB limits the rate PBS can
                             charge in the rent cost. In FY 2001, the shortfall was about
                             $69 million.

                        •    FPS is GSA’s Building Security Committee representative to
                             coordinate security enhancements in its buildings. FPS’ departure
                             will require GSA to appoint additional representatives to each
                             building committee.

                        •    Substantial personnel resources are needed to maintain the high
                             degree of coordination and cooperation with building operations
                             personnel, tenant agencies, community groups, local officials, and
                             various architectural, environmental and historic preservation
                             organizations.

                      Security Clearance Process for Contractor Personnel
                      GSA policy requires that all employees of contractors successfully
                      undergo a limited background suitability check to work in GSA-controlled
                      buildings. In addition to security guards, this includes staff in child care
   A significant      centers, employees of janitorial and maintenance contractors, and
number of contract    contractors working on GSA’s computer information systems, in particular,
                      GSA’s electronic mail system.
  employees and
   private sector     In separate audits performed in several regions, we found that a
  personnel who       significant number of contract employees did not have proper security
                      clearances.
   work in GSA-
controlled space do   • In one region, 33 percent of our sampled records had no background
                        checks inpart because the contracting officers had not included the
  not have proper
                        requirement in the contracts.
      security
    clearances.       • In another region, 101 (64 percent of our sample) of the contract
                        employees did not have proper clearances. This occurred because the
                        region, (1) lacked controls to ensure that it received clearance
                        information from contractors in order for background checks to be
                        performed, and (2) did not maintain adequate records of the clearance
                        status for each contractor employee.


                                                                       Office of Inspector General 5
                                      Management Challenges




                                      Protection of Federal Facilities and Personnel (continued)

                                      • None of the seven contractors who operate GSA’s e-mail system have
                                        had any background or security investigation performed. Although
                                        GSA’s IT security policy requires that all persons accessing sensitive
                                        computer systems undergo background investigations, the requirement
                                        was not added to specific task orders.

                                      • Contracting Officer Representatives have neither ensured that
                                        companies requiring access to sensitive areas of some Federal
                                        buildings provide current lists of their employees who will access the
                                        building, nor that the employees coordinate the site visits with facilities
                                        managers to ensure that only authorized individuals receive access.

                                      • Many vendor employees in a Federal building did not complete the
                                        pre-employment security clearance process. The employees continued
                                        to work using expired temporary identification badges.

                                      The widespread frequency of GSA managers not ensuring that contract
                                      employees have proper clearances creates another security risk.

                                      Our reports recommended that background checks be obtained for
                                      contract employees and employees of companies leasing Federal
                                      building space from GSA, and that where necessary contracts or task
                                      orders be amended to incorporate the requirement.

                                      GSA management has made significant progress in addressing the
                                      issues included in our prior audit reports and remains focused on efforts
                                      to improve the safety and security of Federal employees and property.
                                      We continue to work closely with management to assist them in better
                                      achieving their goals.

                                      Management Controls
                                      Multiple management controls and extensive supervisory reviews have
                                      been replaced, through streamlining efforts, by fewer and broader
                                      controls, making it essential that the remaining control processes be
                                      emphasized and consistently followed. Streamlined processes have
                                      helped GSA achieve its goal of serving customers quicker and more
                                      efficiently, however, the Agency is exposed to the risk of abuse and
                                      mismanagement if program officials do not ensure the faithful application
                                      of existing safeguards.




6 Semiannual Report to the Congress
                    Management Challenges




                    Management Controls (continued)

                    Employee Awards Program
                    In conjunction with the nationwide implementation of a “pass/fail”
                    performance appraisal system, GSA incorporated an employee award
                    systems application that seeks to recognize specific acts at the time of
                    their occurrence rather than adhering to the past practice of tying rewards
                    to the annual rating process. In keeping with the trend toward
                    streamlining operations and empowering employees, GSA eliminated the
                    requirement of multiple approval layers traditionally needed to issue cash
                    and time-off awards. With regard to cash awards up to $5,000, the
                    designated approving official has sole responsibility for approving and
                    documenting the award; there is no requirement for review by a higher-
                    level official. Under the GSA Awards Program, cash awards are
                    processed through FEDdesk, an automated platform where designated
                    officials electronically approve awards using password protected
                    authorization procedures. Awards documentation, which is required, is to
                    be maintained either electronically in the FEDdesk platform or physically
                    by the approving official.

                    This period, the OIG reviewed the policies, procedures, and operations of
                    the GSA Awards Program. We found that significant weaknesses existed.
                    For the 20 months reviewed, GSA officials authorized 80,854 awards
   Significant      totaling almost $55 million in cash as well as 11,345 hours in time-off
  weaknesses,       awards. While most awards were supported, there were substantial
   ineffective      problems. Examination revealed that 49 employees received 20 or more
                    awards; 34 employees received awards totaling more than $20,000;
controls found in   675 employees received awards exceeding $10,000; and four employees
the GSA Awards      received awards adding up to more than $5,000 each when the approving
    Program.        officials split the awards into separate transactions to avoid exceeding the
                    limitation. The Administrator must approve awards of more than $5,000.
                    Due to the frequency of award overuse, inappropriate salary
                    augmentation associated with repetitive awards to the same individuals,
                    and disregard for approval authorities, we reported that existing controls
                    were ineffective.

                    Other areas of concern included instances where officials approved
                    awards for themselves as part of a group of employees receiving an
                    award, employees were granted awards based upon fees that GSA was
                    charging client agencies, and nonsupervisory personnel were
                    inappropriately delegated authority. We also found instances of
                    employees abusing the awards program in one region where peer-to-peer
                    awards had been authorized. Finally, our review paralleled findings of the
                    Office of Personnel Management’s quadrennial review of human
                    resources, including the awards program, reporting that required award
                    documentation was not always prepared and maintained.



                                                                     Office of Inspector General 7
                                      Management Challenges




                                      Management Controls (continued)

                                      Our August 5, 2002 report noted that GSA management had taken many
                                      proactive actions, including the re-certification of all approving officials by
                                      the Heads of Service and Staff Offices and Regional Administrators and,
                                      at the direction of the Administrator, a study of the awards program to
                                      assess the nature of the program as well as its monetary impact.
                                      Changes have also been made to preclude officials from making awards
                                      to themselves when authorizing group awards. The report also
                                      recommended that the Chief People Officer: develop guidance requiring
                                      periodic reviews by management officials of the justification and nature of
                                      awards, identify the minimum level of authority required to make awards,
                                      and disseminate “best-practice” procedures to better ensure the integrity
                                      of peer-to-peer award programs.

                                      Billing and Payment Systems
                                      GSA provides a variety of goods and services to nearly every department
                                      in the Federal Government and, as a result, interacts extensively with
                                      Federal entities and contractors using a myriad of collection and payment
                                      processes. In previous semiannual reports, we have addressed many of
                                      the challenges facing the Agency when processing financially-related
                                      transactions for GSA’s rapidly expanding and increasingly complex
                                      government programs. While GSA has been aggressive in seeking to
                                      simplify and improve processes and at the same time enhance
                                      relationships with its contractors and clients, the OIG continues its efforts
                                      to ensure government resources and funds are adequately protected and
                                      financial systems are efficient and effective.

                                        FTS2001 Billings. This period the OIG surveyed customer agencies
                                        regarding the Internet-based FTS2001 billing system that gives
                                        customer agencies direct access to detailed billing records for long-
      With more                         distance voice and data telecommunications, international direct
                                        dialing, and wireless communication services. Our review disclosed
   accurate client
                                        that the Federal Technology Service (FTS) could improve billing
  information, FTS                      processes and customer relationships by maintaining accurate and
    can promptly                        complete client information. FTS does not have valid e-mail addresses
   address billing                      for 50 percent of the FTS2001 users, effectively preventing it from
                                        readily contacting users regarding billing system issues and solutions.
 system issues and                      In addition, billing issues and inquiries were not being tracked by FTS,
 improve customer                       so we were unable to determine if follow-up actions were being taken
                                        in a timely manner and systemic issues were being communicated to
      relations.
                                        users. The report recommended that FTS maintain valid contact
                                        information for registered users, and track billing and other issues,
                                        such as system improvement efforts, to assure timely and effective
                                        user follow-up.




8 Semiannual Report to the Congress
Management Challenges




Management Controls (continued)

  Other Control Reviews. The OIG also completed three other reviews
  during the period involving controls over recovery audit contracts,
  reimbursable work authorization billings, and purchase card payments.

  •    Review of the administrative controls used to ensure that the
       recovery auditing services program adequately addresses the
       identification and recovery of overpayments disclosed that GSA
       initially restricted the recovery contractor’s access to records,
       thereby limiting potential recoveries. With over $5 billion of
       payment history files to review, overpayment recoveries could
       significantly increase. In addition, GSA was not capturing the
       costs associated with the contract that can be reimbursed from
       funds collected under the program as authorized by recent
       legislation.

  •    The second review revealed that control processes could be
       relied upon for processing accurate and timely reimbursable work
       authorization billings between GSA and other Federal agencies;
       however, the need for better estimated cost information and
       tracking was identified.

  •    In the third review, we found that the controls over the issuance,
       maintenance, and use of purchase cards for two regional service
       activities were adequate to ensure compliance with regulations
       and safeguard resources from misuse.

  OIG recommendations focused on improving program operations.

Contract Administration
Once a contract has been awarded, it becomes the responsibility of the
contracting officer or representative to ensure that the contractors are
adhering to the terms and conditions they agreed to, that the products
and services we contract for and pay for are being provided, that they are
of the quality agreed to, and that they are timely. Recently, we have
noticed that contract administration issues are more frequently being
raised in our audits. While these types of conditions may not be new,
there exists a trend that, if it continues to increase, could lead to
significant problems. With the recent emphasis on using contractors to
perform many of the functions now provided by government employees,
the importance of contract administration will grow considerably.
Understandably, if the weaknesses exist now, GSA needs to undertake
corrective measures before the workload increases.

  Regional Property Management Center. Property Management
  Centers (PMCs) fulfill the building services needs and requests of


                                                Office of Inspector General 9
                                       Management Challenges




                                         Management Controls (continued)

                                         government agencies that occupy space in GSA-leased and -owned
                                         properties. Activities generally include procurement, asset
                                         management, and contract and lease administration. In our review of
                                         a regional PMC, we concluded that management did not always
                                         exercise prudent and sound business judgment, and adhere to
                                         applicable laws, regulations, or established policy and procedures
                                         when making procurements. In addition, Center personnel did not
                                         effectively perform their contract administration duties to ensure that
                                         the quality and quantities of goods and services received were what
                                         the government had contracted and paid for.
    Controls over
                                         Our review revealed that controls over service contracts were either
  service contracts                      ineffective or did not exist. Our examination of 17 performance-based
     were either                         service contracts found that the contractors did not develop or
  ineffective or did                     implement required quality control programs to assure that essential
                                         contract requirements were met. More importantly, the PMC did not
      not exist.                         have a quality surveillance plan in place to ensure that operation and
                                         maintenance, janitorial, and elevator service contractors were meeting
                                         their critical responsibilities.

                                         A review of procurement-related activities showed that PMC officials
                                         contracted for food service concessions without determining that the
                                         contracts would be self-supporting, without obtaining profit and loss
                                         statements and evidence of liability insurance, and without including
                                         requirements for contractor employee security clearances. The PMC
                                         also improperly used about $145,000 of construction funds and license
                                         revenues to procure systems furniture, appliances, and a 125-gallon
                                         aquarium. Finally, we noted that 14 of the 43 construction projects
                                         reviewed were delivered at least 1 month late, yet the PMC did not
                                         assess liquidated damages as provided for under the contracts. Other
                                         procurement files did not have final inspection reports or estimated
                                         completion dates necessary to determine whether the work was
                                         performed in accordance with the contract specifications. The OIG
                                         made several recommendations for improving PMC operations and
                                         strengthening controls over current procedures. We also suggested
                                         counseling/disciplining of officials responsible for misuse of government
                                         funds and for not performing their duties.

                                         Regional Administration of Guard Service Contracts. In one
                                         region, management officials certified payments for guard services
                                         without adequate assurance that supporting documents had been
                                         properly prepared by the contractor, and collected and reviewed by the
                                         program staff. Management relies on GSA Form 139, Record of Time
                                         of Arrival and Departure from Buildings, as a primary control to assure



10 Semiannual Report to the Congress
                     Management Challenges




                       Management Controls (continued)

                       that the contracted services have been provided. For each post being
                       staffed, the contract guards are to sign in and sign out, on a daily
                       basis, using a Form 139 as a means of documenting services being
                       provided.

                       The contract administration staff did not routinely review the Form 139.
                       In our sample of 49 payment transactions, almost half, valued at
                       $617,167 were not supported. Some transactions were partially
                       supported, and only 17 were fully supported. By reviewing the Form
                       139 files for the supported transactions, we noted a large number of
                       instances where guards had not signed in or out as required, indicating
   In one region,      that the posts were not staffed, yet no deduction was taken. We
                       estimate these to be worth over $44,000. We also observed significant
guard contractors      alterations on the forms (such as cross-outs, whiteouts, and out of
 are paid without      sequence and superimposed entries), yet did not find any government
proper assurances      request for explanations nor payment deductions taken.
  and, in another      This condition occurred because contract administration responsibilities
       region,         had not been clearly delineated, and written procedures had not been
  contractors are      issued. In our September 30, 2002 report, we recommended that
                       management establish written procedures to delineate job descriptions
  not timely paid.     for processing guard service payments; establish procedures to ensure
                       that Form 139 files are collected from the guard posts, logged upon
                       receipt, and reviewed in a timely manner prior to payment approval;
                       and analyze those cases identified in our review where the Form 139
                       files indicated unguarded posts and initiate recovery action where
                       appropriate.

                       In another region, we found the opposite situation existed for contract
                       payments. Contractors were not being timely paid in part because the
                       region was too overworked/understaffed to review the Form 139 files
                       and officials would not certify invoices for payment until Form 139 files
                       were reviewed. During our fieldwork, we confirmed that GSA’s
                       overdue payments totaled about $1.9 million, and that it took an
                       average of 49 and 79 days for invoices to be paid for fixed guard posts
                       and temporary guard posts respectively. Previously, a guard service
                       contractor claimed to be in danger of fiscal collapse since GSA owed
                       $1.5 million, as of February 2001. The OIG confirmed in September
                       2001 that, despite two substantial payments, GSA still owed this
                       contractor $594,000. As of September 30, 2002, the contractor had
                       not yet been paid the entire overdue amount.

                       We found that part of the problem for untimely payments was caused
                       by Contracting Officer Representatives (CORs) ordering additional
                       guard services without following the approval process. Not only does


                                                                    Office of Inspector General 11
                                       Management Challenges




                                         Management Controls (continued)

                                         this delay payment to contractors because necessary budget and
                                         accounting documentation has not been obtained prior to invoices
                                         being submitted, but also the CORs are committing funding without
                                         budget or contracting officer approval.

                                         We also noted that most of the guard service contracts in this region
                                         had expired but have been extended several times. This indicates
                                         poor planning on the part of the Agency for failing to have a
                                         replacement contact ready before a current contract expires. This
                                         practice increases procurement costs and can cause a breakdown in
                                         contract administration.

                                         We benchmarked this region with another GSA region and offered
                                         suggestions to management as to how service might be improved. We
                                         recommended that the region centralize the function for ordering
                                         additional guard services; establish standard operating procedures
                                         setting forth the duties and responsibilities of those involved in the
                                         process; train appropriate personnel on the ordering process for
                                         additional guard services; and conduct further benchmarking to reduce
                                         the time for verifying hours worked and paying contractors for services
                                         performed.

                                         PBS Outleasing Program. When space in GSA-controlled properties
                                         is not needed to house Federal agencies, and disposal is neither
                                         practical nor prudent, GSA can outlease the space to the public. In
                                         one region, 29 outleases generated annual revenues of over
                                         $1.1 million. The OIG reviewed outleases to determine if the contract
                                         files included sufficient support for the negotiated rental rates, if the
   Outleasing rental                     lessees paid the correct monthly rental rate promptly, and if the leases
      rates were                         were being managed in accordance with their terms and conditions.
       properly                          We reviewed three leases for space in Federal buildings and four
                                         leases for antenna sites in the region.
   supported except
  in one case where                      We concluded that, with one exception, contract files supported the
                                         negotiated rental rates and that lessees promptly paid the correct
     below market
                                         monthly rents. In the exception case, the annual rent charge for a
      rates were                         relatively small amount of space was reduced about 90 percent below
   extended without                      market rate. While the GSA Administrator has the authority to grant
                                         rent relief in certain situations, that authority has not been delegated to
       approval.
                                         anyone below the PBS Commissioner. The contract files did not
                                         contain evidence that the PBS Commissioner had approved the rent
                                         concession. Although the current contracting officer was not involved
                                         in the original agreement, we believe he recently exceeded his
                                         authority by negotiating a new 3-year agreement for the space with the
                                         same lessee at rates below market without the Commissioner’s
                                         approval.
12 Semiannual Report to the Congress
Management Challenges




Management Controls (continued)

  In reviewing the antenna site leases, we saw that lessees’
  representatives gained access to antenna sites without first
  coordinating the visit with GSA property managers. Personnel who
  were not pre-approved had access to the sites as well as other secure
  parts of buildings, creating potential security risks. We recommended
  that contracting officers designate representatives to improve security
  awareness for those involved with antenna site leases, to coordinate
  antenna site access for approved personnel, and to ensure
  unauthorized individuals do not gain access to the site. We also noted
  that one lessee had not installed a separate electric meter as required
  and should reimburse GSA the cost of electricity used since November
  1999.

  While the Regional Administrator agreed with most of our report
  recommendations, he stated that it is within the discretion of the
  contracting officer to charge other than prevailing rent rates. However,
  his position was based on an outdated policy. Regional officials are
  still reviewing this matter.

  Contract Improperly Terminated. We received a complaint from a
  guard service contractor whose contract was terminated before it
  started because the contractor was unable to get weapons permits in
  the days immediately following September 11, 2001. After reviewing
  the complaint, we concluded that the contracting officer had terminated
  the contract without allowing the start-up period required by the
  contract and without providing sufficient time for the contractor to
  correct the deficiencies, i.e., no weapons permits. In addition, rather
  than extending the existing contract until permits could be obtained, the
  contracting officer renewed the existing contract at a significantly
  higher cost.

  Personal Property Donations. GSA regional offices are required to
  conduct periodic reviews of the individual State Agencies for Surplus
  Property (SASP) located within their regions at least every 4 years to
  ensure that Federal surplus personal property donated to the SASPs is
  safeguarded and distributed to eligible donees.

  As part of the Annual Audit Plan, the OIG reviewed the Surplus
  Property Program in one region. We focused our review on the plan of
  operations agreed to between GSA and one of the four SASPs located
  in this region. During FY 2000 and 2001, this SASP had donated
  property with acquisition cost exceeding $21 million. We noted that
  while the SASP’s procedures for acquiring, storing, and distributing




                                               Office of Inspector General 13
                                       Management Challenges




                                       Management Controls (continued)

                                         property are acceptable, it needs to establish or improve its practices
                                         for accounting for inventory in its warehouses, updating donee
                                         eligibility files, requiring donees to sign receipts for property, and
                                         reporting cancellations to GSA.

                                         Although we did not see any specific indications of misuse, this
                                         program area has been historically abused. GSA officials need to
                                         ensure that SASP reviews are conducted at least every 4 years as
                                         required by policy. We found that the last reviews of the four SASPs
                                         in this region occurred between April 1995 and January 1997.

                                       Procurement Activities
                                       GSA provides Federal agencies with products and services valued in the
                                       billions of dollars through various types of contracts. We conduct reviews
                                       of these activities to ensure that the taxpayers’ interests are protected.

                                       Procurements by a Regional Service Center
                                       The Federal Acquisition Regulation (FAR) requires that contracting
                                       officials provide file documentation that each step of the acquisition
                                       process is complete. In our review of a regional Service Center, we
                                       found that an unusually high staff turnover rate and a large number of
    High turnover                      inexperienced contracting officers were contributing factors where pricing
       rates and                       was not adequately substantiated in the majority of contract files that we
                                       sampled. We were unable to locate critical documents that should have
    inexperienced                      been present to support the awarded price, such as government
        staff are                      estimates, price negotiation memoranda, best value determinations, and
    contributing to                    contractor’s proposals. In addition, we could not determine the Agency’s
                                       basis for proceeding with other than full and open competition and for
   unsubstantiated                     selecting a contractor for a sole source procurement. Contracting
  pricing decisions.                   officials’ efforts did evidence their commitment to other aspects of the
                                       procurement process, such as customer satisfaction and timely contract
                                       award. We believe that ensuring fair and reasonable pricing would serve
                                       to benefit the overall acquisition program.

                                       During our review, we also identified three procurement actions that
                                       require ratification by a contracting officer because program officials, not
                                       authorized to do so, made awards to three firms for various services
                                       valued between $15,000 and $30,000.

                                       The Regional Administrator responded that action would be taken to
                                       ensure that the basis for informed decisions at each step of the
                                       acquisition process are contained in the contract files, especially those
                                       related to pricing. He also agreed that contracting officials will ratify the
                                       service procurements that were awarded by program officials, and he will


14 Semiannual Report to the Congress
                   Management Challenges




                   Procurement Activities (continued)

                   issue a reminder of the consequences of engaging in unauthorized
                   contracting actions.

                   Contractor Responsibility Determinations
                   Prior to awarding a contract, GSA contracting officers are required to
                   determine whether prospective contractors have the skills and resources
                   necessary to perform the work and if they have a satisfactory record of
                   performance, integrity, and business ethics. The FAR specifies that
                   contracts may be awarded only to responsible contractors. While the
                   determination of responsibility is a judgment made by the contracting
                   officer, the decision-making guidance in the FAR is very general.

    Contractor     At the end of FY 2001, GSA had over 9,000 Multiple Award Schedule
 determinations    (MAS) contracts in effect that enabled customer agencies to acquire over
                   4 million commercial products and services in an efficient and timely
can be improved    manner. Federal agencies rely on GSA to have evaluated prospective
by implementing    contractors to ensure they are responsible and capable of delivering
  guidance that    products and services quickly and efficiently.
      clearly      While GSA strives to ensure that prospective contractors are assessed
 communicates      against FAR responsibility standards, more can be done to help make the
  responsibility   determinations more consistent, complete, and fully supported.
    standards.     The OIG reviewed the responsibility determination process as part of its
                   Annual Audit Plan. In the documents we reviewed we saw a wide range
                   of support — from only affirmative statements (as mandated by FAR) to
                   detailed descriptions of the decision-making rationale.

                   We believe GSA needs to focus on improving core analysis of relevant
                   information, especially financial and performance, incorporating
                   documentation to provide an audit trail of the contracting officer’s
                   rationale and specific information considered. Closer examination of
                   contractor performance and responsibility reduces risk and can lead to
                   greater customer confidence and satisfaction.

                   In our report, we recommended the Agency implement procedural
                   guidance that clearly communicates standards in the application and
                   evaluation of prospective contractor responsibility qualifications, including
                   sufficient evidentiary support and decision-making rationale.

                   In response to our report, management issued guidance to all Federal
                   Supply Service acquisition activities reminding contracting officers of the
                   importance of documenting contractor responsibility determinations; the
                   specific types of information to be considered; and the need that
                   determinations be consistent, logically sound, clearly articulated, and fully
                   supported.

                                                                    Office of Inspector General 15
                                       Management Challenges




                                       Information Technology
                                       GSA is in the process of replacing a number of its old information
                                       systems in keeping with technological advances. Since GSA has had
                                       difficulty sharing usable data between systems, many of the new IT
                                       projects are designed to go beyond automating current business
                                       functions and create real change in the way that GSA does business.
                                       However, development of new GSA systems has typically been
                                       characterized by schedule delays and cost overruns, the need for
                                       frequent redesign, and a prolonged period of time in development.

                                       Information Security Program
                                       We performed an independent evaluation of GSA’s Agency-wide
                                       information security program and controls as required by the Government
                                       Information Security Reform Act (GISRA). We reviewed GSA’s
                                       Information Technology (IT) Capital Planning and Investment Control
                                       process, but focused our evaluation on security aspects of six major IT
                                       systems that support the operations of the GSA Services and Staff
                                       Offices. For these six systems, we generally found higher levels of
                                       security control in place than in the prior year’s review. We also
                                       performed an independent evaluation of GSA’s Plan of Actions and
                                       Milestones (POA&M), as directed by OMB, to determine if all 14 security
                                       weaknesses previously found were identified, and if the document is
                                       being used as a management tool to prioritize, track, and manage the
                                       Agency’s efforts to close known security performance gaps.

                                       The Chief Information Officer (CIO) administers all functions covered by
                                       GISRA. The GSA Administrator also appointed the CIO as the Critical
                                       Infrastructure Assurance Officer responsible for GSA’s critical
                                       infrastructure, in accordance with Presidential Decision Directive 63. The
                                       effort was established to reduce the possibilities that terrorism or other
                                       attacks could shut down vital components of the American economy.

                                       GSA established the IT Capital Planning and Investment Control (CPIC)
                                       policy and an IT governance structure to improve the process of
                                       managing information systems and to implement an accountability review.
                                       The process also facilitates the development of GSA’s Capital Asset
                                       Plans and Justifications, submitted annually to OMB. For FY 2003
                                       budget submissions, GSA submitted 41 Capital Asset Plans and
                                       Justifications to OMB, some of which OMB rejected for security
                                       weaknesses. For FY 2004 budget submissions, none have yet been
                                       submitted to OMB.

                                       Six of the previously cited 14 weaknesses were characterized in the
                                       POA&M as having been corrected; however, we believe one was not




16 Semiannual Report to the Congress
                     Management Challenges




                     Information Technology (continued)

                     sufficiently addressed. The POA&M indicated that a comprehensive
                     assessment of the knowledge, skills, and abilities of the information
                     system security professionals was conducted to address a specific
                     weakness. However, we determined that the assessment did not include
                     the following categories, as recommended by the National Institute of
                     Standards and Technology:

                     • laws and regulations governing the management and use of IT within
Security for major     the Federal Government;
GSA systems has
                     • security program requirements determining the establishment,
  improved but         implementation, and monitoring of the program within an organization;
  security plan        and
 weaknesses still
                     • system life cycle security addressing the nature of IT security that is
   need to be          needed throughout each phase of a system’s life cycle.
   addressed.
                     Actions to correct the remaining eight weaknesses depend upon the
                     completion of the revisions to GSA’s IT Security Policy. We determined
                     that the revised IT Security Policy needs to include the roles and
                     responsibilities of the Senior Agency Information Security Official and the
                     Security Division. We also determined that POA&Ms at the system level
                     have not been completed and are not being used to prioritize, track, and
                     manage GSA’s efforts to close security performance gaps.

                     Our report was incorporated into GSA’s GISRA report, which has been
                     sent to OMB. The results of all reporting agencies will be provided by
                     OMB to Congress.

                     FEDdesk’s Online Services
                     GSA’s Finance Center provides accounting and financial services to GSA
                     as well as 17 other Federal agencies. In 1994, the Finance Center
                     developed the FEDdesk platform to provide easy online access for
                     various administrative functions. The first developed FEDdesk
                     application, Electronic Time and Attendance Management System
                     (ETAMS), is used by all 18 organizations for their 24,000 employees.
                     Finance added FEDdesk’s Travel and Miscellaneous Reimbursement
                     (TMR) application in 1997 to eliminate the paper process for authorizing
                     and approving travel and miscellaneous expense vouchers. This was
                     followed by the Awards application in 1998 to provide managers online
                     access to initiate employee awards. A few agencies use the TMR in
                     addition to ETAMS, and one agency plans to use all FEDdesk
                     applications. The Labor Distribution application is currently being piloted




                                                                     Office of Inspector General 17
                                       Management Challenges




                                       Information Technology (continued)

                                       as part of project cost accounting by capturing actual labor hours and
                                       associated costs for products and services.

                                       While FEDdesk has been in operation for over 6 years, GSA has not
                                       completed a full risk assessment. This would assess the security
                                       requirements, customer needs, and operations. It would also help to
                                       ensure the integrity, reliability, and accuracy of the transactions that are
                                       processed through the interface. Moreover, such an assessment would
 While FEDdesk is                      help project managers design FEDdesk upgrades to meet new user
  over 6 years old,                    requirements and implement new Federal-wide information processing
    GSA has not                        and financial standards, which take effect over the next few years. This is
                                       especially true of the need for GSA to implement in FEDdesk appropriate
  completed a full                     electronic authentication technologies to verify and identify the sender
  risk assessment                      and the integrity of the message.
 and does not have
                                       On the operational side, most applications function well, but we identified
      a Disaster                       two aspects that need improvement. Our testing found that the per diem
   Recovery Plan.                      reimbursement rate tables in the TMR module contained many rates that
                                       were not the current reimbursement amounts. These errors occurred in
                                       more than 10 percent of our test sample and clearly evidenced the need
                                       for FEDdesk personnel to take additional measures to keep the data
                                       tables current, accurate, and complete. We also suggested that
                                       additional controls be added to the ETAMS module to lower the risk of
                                       entry tampering.

                                       FEDdesk relies on the Internet for day-to-day operations. It also
                                       accesses data, some of which is considered sensitive. ETAMS collects
                                       and stores employee personal data, such as social security numbers.
                                       We found that, overall, personal data was being adequately protected.
                                       However, official users of personal data were granted broader access to
                                       records than necessary to accomplish their tasks. In response to our
                                       access control testing, the Finance Center is taking action to limit access
                                       to this application. During the initial stages of our review, we found that
                                       GSA did not have a Disaster Recovery Plan for FEDdesk and that backup
                                       tapes, while stored offsite, were not located at an approved offsite facility.
                                       Subsequently, the Agency has arranged to store FEDdesk backup tapes
                                       at another secure Federal facility and has taken additional steps to
                                       ensure continuity of service should the main computer site be shut down.

                                       The database administration service is provided by a contractor who
                                       develops, maintains, and administers all aspects of FEDdesk. Our review
                                       of the contract agreement disclosed that controls to ensure that data is
                                       protected and that an adequate audit trail is maintained. The contract
                                       only requires that a log for database activity be kept for 2 weeks. This



18 Semiannual Report to the Congress
Management Challenges




Information Technology (continued)

may not be long enough to detect and correct security breaches. The
contract also requires information on Internet Protocol address to be
stored in the database for all failed logon attempts. We believe that
successful logons also need to be stored in order to track security
breaches back to the source.

Facility coordinators perform a wide range of basic administrative duties
for FEDdesk, such as establishing new employees’ access to FEDdesk,
assigning access rights to users, and inputting user identifiers and
preliminary passwords. Because these privileges make it possible for
facility coordinators to assign themselves approving rights for any
FEDdesk application, GSA needs to verify that each facility coordinator
has the approval of their organizations.

In our August 30, 2002 report, we recommended that the Chief Financial
Officer take action to:

• Complete a risk assessment and perform a post-implementation review
  or customer survey.

• Ensure sensitive data is protected.

• Validate Facility Coordinators and provide regular training and
  guidance.

• Implement and test appropriate access controls in the Awards
  component.

• Improve contract provisions that will better enable the detection of
  security breaches.

The audit is still in the resolution process.

Securing GSA’s E-Mail System
GSA’s electronic mail system, Lotus NotesMail, is a component of the
Agency’s Nationwide Information Infrastructure (Infrastructure) and
supports the Agency’s mission by providing 14,000 GSA employees and
3,000 GSA contractors with network services that include the Internet and
Intranet, e-mail, calendar and scheduling services, connectivity, and
dial-in services.

The OIG included this review in its Annual Audit Plan because of security
concerns. We are aware that other organizations have had computer
viruses and unauthorized access impacting communications and services



                                                Office of Inspector General 19
                                       Management Challenges




                                       Information Technology (continued)

                                       or compromising sensitive information. In our review, we determined that
                                       GSA has implemented effective firewall procedures to prevent viruses
                                       and block unwanted mail. However, we did note opportunities to improve
                                       e-mail security and controls. We reported that contractors, who currently
                                       work on the Infrastructure, did not undergo background or security
                                       investigations. We also found that GSA was not able to ensure that the
                                       3,000 e-mail accounts are for bona-fide GSA contractors; 15 of the
                                       120 accounts we sampled should have been deactivated.

                                       We also noted that workstation access controls need to be strengthened
                                       to ensure basic security of the system. In particular, e-mail users do not
  GSA has effective                    have to periodically change their passwords, nor must the passwords
     firewalls to                      contain complex characters. Also, users are not locked out after a
                                       number of failed logon attempts. Corrective measures have been
   prevent viruses                     developed and are being implemented.
      and block
                                       GSA employees and contractors are relying more on e-mail as a primary
   unwanted mail,
                                       means of communication. While e-mails are encrypted for internal
  but can improve                      messages, users with a need to send sensitive information to external
   e-mail security,                    customers and other Federal agencies cannot do so with encryption,
                                       since GSA’s e-mail servers are not configured to encrypt e-mail
  access controls,                     messages that are sent outside of the Agency.
  and contingency
      planning.                        GSA’s contingency plan for the Infrastructure considers all of its
                                       components critical in fulfilling its mission. The contingency plan,
                                       however, did not adequately address the actions the Chief Information
                                       Officer (CIO) would need to take to restore operability in the event the
                                       GSA National Office Building or equipment was heavily damaged or made
                                       inaccessible. The only backup server for the GSA National Office
                                       included in the plan could not handle the high volume of data generated.
                                       In addition, the plan does not require GSA regions to store backup data
                                       offsite, although some regions and the CIO are sending their backup data
                                       to an offsite location as an added security measure, in addition to
                                       performing nightly backups.

                                       In our September 26, 2002 report, we recommended that the CIO obtain
                                       background investigations for contractors working on the Infrastructure;
                                       promptly delete e-mail access for all terminated contractors; require
                                       password aging; assess user requirements for secure communications
                                       with third parties; and improve contingency plans to restore operability in
                                       the event the GSA National Office Building is heavily damaged or
                                       inaccessible, and for storing backup data at an offsite location by GSA
                                       regions.




20 Semiannual Report to the Congress
Management Challenges




Human Capital
Like many Federal agencies, GSA has an aging workforce and faces
significant potential loss of institutional knowledge in the coming years.
Since 1993, GSA has been downsizing and has focused on restructuring
its financial and business efforts. Much of the downsizing was
accomplished through early retirement and buyout authority, and by filling
job vacancies sparingly.

Congress and GAO have identified human capital management policies
as a missing link in the government’s performance management
framework. GAO identified human capital planning and organizational
alignment, leadership continuity and succession planning, and recruitment
and retention of staff with the right skills as key areas needing attention.

FAIR Act
GSA has provided OMB an inventory of the activities performed by its
employees since the inception of the Federal Activities Inventory Reform
(FAIR) Act of 1998. The Act requires Federal agencies to annually
identify any commercial activities they perform and consider these for
competition with the private sector.

GSA was recognized as an early leader in the Act’s implementation.
Continued success however, depends on GSA’s ability to inventory its
activities with more accuracy and consistency. With the advent of the
President’s Management Agenda in FY 2002, competitive sourcing, a
component of the FAIR Act, became a major initiative. GSA has been
timely in reporting its annual inventory to OMB, however, we noted some
problems. While the actual compilation of activities was left to the
individual sub-elements of the Services and Staff Offices, GSA’s guidance
was considered general and informal and resulted in multiple
interpretations on how activities were coded and reported. For example,
though GSA guidance called for personnel with contract warrant authority
(a major GSA activity) to be classified in the inventory as inherently
governmental, two regions expanded upon this guidance by including as
inherently governmental any employee that was connected to the
acquisition process (e.g., contracting officer’s technical representative) or
any employee who held a Government purchase card.

In the current environment, the effect of overly subjective classification
becomes readily apparent. Those who liberally code their activities as
inherently governmental are less affected by the competitive sourcing
requirement included in the President’s Management Agenda. The
competitive sourcing burden shifts, perhaps unfairly, to GSA’s other
components — those that classified their activities more strictly under the
GSA guidance. Resolving these matters would favorably affect the



                                                 Office of Inspector General 21
                                       Management Challenges




                                       Human Capital (continued)

                                       strategy GSA uses for its competitive sourcing effort, and improve its
                                       ability to withstand challenge and appeal of the listed activities’
                                       classifications.

                                       In our July 16, 2002 report, we provided GSA with helpful examples used
                                       by other Federal agencies to either realign their staffs or capture and
                                       disseminate data not only for the FAIR Act but also for the President’s
                                       Management Agenda. We also recommended that the CFO formalize the
                                       way guidance is issued and that the guidance be Agency-specific. In
                                       addition, the CFO should develop an oversight process to review
                                       inventory data at all levels.

                                       In response to our report, the Agency issued GSA-wide guidance to
                                       improve accuracy and consistency in the inventorying process. A
                                       competitive sourcing team reviewed each Service’s inventory data, and a
                                       FAIR Act website that can be accessed by all GSA employees was
                                       developed. In addition, GSA’s Administrator established a new
                                       organization, the Office of Performance Improvement, to oversee the
                                       development and execution of GSA’s Competitive Sourcing Plan.




22 Semiannual Report to the Congress
                      Promoting and Protecting Integrity




                           GSA is responsible for providing working space for almost one million
                           Federal employees. The Agency also manages the transfer and disposal
                           of excess and surplus real and personal property and operates a
                           governmentwide service and supply system. To meet the needs of
                           customer agencies, GSA contracts for billions of dollars worth of
                           equipment, supplies, materials, and services each year. We conduct
                           reviews and investigations in all these areas to ensure the integrity of the
                           Agency’s financial statements, programs, and operations and that the
                           taxpayer’s interests are protected. In addition to detecting problems in
                           these GSA programs and operations, the OIG is responsible for initiating
                           actions to prevent fraud, waste, and abuse and to promote economy and
                           efficiency.

                           Significant Criminal and Civil Actions
                           FPS Police Officers Falsify Police Reports
                           Our Atlanta Investigations Field Office received allegations that Atlanta
                           Federal police officers employed by GSA had falsified/altered police
                           incident reports at the direction of their superior officers. Our
     Two FPS               investigation revealed that these falsified records were presented by the
                           Atlanta Federal Protective Service (FPS) to Office of Personnel
supervisory police         Management (OPM) officials.
   officers were
   convicted of            Specifically, the FPS officers in Atlanta altered police reports to falsely
                           show officers performing investigative activities in order to meet an OPM
falsifying/altering        standard that required investigative duties to justify higher grade levels.
  police incident          GSA had previously made a decision to raise the pay grade of FPS
      reports.             officers nationwide, but OPM had required GSA to provide further support
                           and justification before approving the decision. It was in the course of
                           providing this justification that the Atlanta FPS officers provided falsified
                           records.

                           On April 19, 2002, one supervisory officer entered into a plea agreement
                           with the U.S. District Court for the Northern District of Georgia to altering
                           police incident reports. He resigned from his position on June 26, 2002.
                           A jury in the U.S. District Court, Northern District of Georgia found the
                           other FPS supervisory officer guilty of criminal conspiracy to falsify police
                           records. Sentencing for both officers is pending.

                           The prosecutors decided not to prosecute the subordinate police officers
                           who altered the reports. Their conduct will be dealt with by administrative
                           action.




                                                                            Office of Inspector General 23
                              Promoting and Protecting Integrity




                                       Court Finds Construction Contractor Liable to Government for
                                       Nearly $1.7 Million for Fraud Related to 8(a) Contractor Status
                                       The U.S. District Court for the Southern District of Texas entered
                                       judgment against Pi Construction Corporation (Pi) for $1,690,000 on
                                       September 13, 2002. The Government had intervened in a qui tam False
                                       Claims Act lawsuit (a suit brought by a whistleblower on behalf of the
                                       government) alleging that Pi intentionally misrepresented its eligibility to
                                       participate as an 8(a) contractor. Section 8(a) of the Small Business Act
                                       aids businesses owned and controlled by socially and economically
                                       disadvantaged individuals. The government filed for summary judgment,
                                       and the court found that through its misrepresentations Pi diverted
                                       $5.7 million away from entities who rightfully qualified as 8(a) contractors.
                                       The court assessed a civil penalty of $10,000 for each of the 169 claims
                                       that Pi made to the government, for a total penalty of $1,690,000. Pi had
                                       made three of the claims under GSA contracts, thereby making GSA’s
                                       portion of the judgment $30,000. GSA OIG and DoD Defense Criminal
                                       Investigative Service jointly investigated the underlying allegations.

                                       GSA Construction Contractor Debarred Based on Criminal Fraud
                                       Convictions
                                       On August 20, 2002, AMEC Construction Management, Inc., formerly
                                       known as Morse Diesel International, Inc. (AMEC/MDI), a multinational
                                       provider of construction services, and AMEC, plc., its British parent
                                       company, were debarred for 1 year by GSA’s Office of Acquisition Policy.
      Major                            The debarment prevents AMEC from receiving any new Federal contracts
   construction                        for 1 year from the date it was first proposed, February 20, 2002. The
 company debarred                      debarment was based on two criminal fraud convictions stemming from
                                       an OIG investigation of AMEC/MDI, for making false claims in connection
    for 1 year.                        with the submission of falsified invoices for bond premiums on two GSA
                                       construction projects.

                                       On March 19, 2002, AMEC/MDI was convicted on a guilty plea of one
                                       count of Major Fraud Against the United States in connection with its GSA
                                       contract for the seismic and electrical upgrade of the United States
                                       Customs House in San Francisco, California. The criminal fraud involved
                                       providing GSA with an invoice for a bond premium that was falsely
                                       stamped “Paid,” when MDI had not, in fact, at that time paid the premium.
                                       In conjunction with this conviction, AMEC/MDI paid a $694,322 fine. On
                                       December 12, 2000, AMEC/MDI had pled guilty to one count of making a
                                       false claim against the government by submitting a false bond invoice
                                       relating to its construction contract for the Thomas F. Eagleton
                                       Courthouse in St. Louis, Missouri. As part of the plea agreement,
                                       AMEC/MDI paid a $500,000 fine. A related civil fraud case against
                                       AMEC/MDI is currently being litigated by the Department of Justice in the
                                       U.S. Court of Federal Claims. That case includes fraud allegations
                                       against AMEC/MDI involving its GSA construction contracts for the


24 Semiannual Report to the Congress
Promoting and Protecting Integrity




     U.S. Courthouse and Federal Building in Sacramento, the San Francisco
     Customs House, and the Eagleton Courthouse in St. Louis.

     False Time Reporting by Temporary GSA Employees
     The OIG initiated an investigation after GSA management reported that
     two employees were filing false claims and reporting time irregularities.
     The investigation disclosed that three GSA temporary employees,
     assigned to a GSA building management office in New York, falsified their
     time cards and forged the signature of a GSA building management
     official in order to receive payments for overtime hours not worked nor
     authorized by management. The investigation revealed that the three
     temporary employees fraudulently claimed a total of 2,193 hours of
     overtime costing GSA in excess of $64,000.

     On December 5, 2001, the first employee pled guilty to theft of
     government funds and was sentenced to 3 years probation, 36 hours of
     community service, and ordered to pay restitution of $15,055. On
     March 20, 2002, the second employee pled guilty to theft of government
     money and was sentenced to 3 years probation and ordered to pay
     restitution of $32,109. On April 10, 2002, the third employee pled guilty to
     theft of government funds and was sentenced to 1 year probation and
     ordered to pay restitution of $6,291.

     Officials of Moving Company Sentenced for Mail Fraud
     We initiated an investigation after information was received that two
     moving company officials were submitting fraudulent weight tickets on
     government relocation contracts. The OIG’s of the Department of
     Defense, the Department of Veteran Affairs, and GSA determined that the
     company was improperly billing for government contract moves. The
     investigation revealed that the company forged copies of inventories to
     show more items than were actually moved and then submitted
     fraudulent weight tickets to support the inflated inventories.

     On March 4, 2002, pursuant to a plea agreement, one official pled guilty
     to mail fraud and was sentenced to 60 months probation and ordered to
     pay restitution of $20,698. Previously on July 30, 2001, pursuant to a
     plea agreement, the other official had pled guilty to mail fraud and was
     sentenced to 60 months probation and ordered to pay restitution of
     $18,550.

     Fraudulently Obtained Property
     An OIG investigation was initiated when an employee of Suburban
     Business Products (SBP) reported that he had sold computers to an
     individual, who had represented himself as a GSA employee.




                                                     Office of Inspector General 25
                              Promoting and Protecting Integrity




                                       The investigation determined that the individual represented himself as a
                                       contract manager with “General Services, Regional Distribution Center”
                                       and stated that a payment of $2,000 was required to make a bid. He
                                       styled his “Invitation to Bid” package to resemble that of GSA. The SBP
                                       employee submitted a bid to supply 20 computers along with a
                                       $2,000 cashier’s check assuming he was doing business with the Federal
                                       Government. After the SBP employee made several failed attempts to
                                       contact the individual regarding payment for the computers valued at
                                       $37,940, he stopped payment on the cashier’s check. Eventually, the
                                       individual returned 9 of the 20 computers to SBP.

                                       On February 7, 2002, the individual pled guilty in U.S. District Court to
                                       mail fraud, interstate transportation of fraudulently obtained property, and
                                       aiding and abetting. Sentencing has been scheduled for November 15,
                                       2002.

                                       Theft of Government Funds
                                       An investigation was initiated when the owner of an automobile auction
                                       company reported to GSA that a check had been received in error. When
                                       the owner returned the check to GSA, it was alleged to have been
                                       negotiated by a GSA employee.

                                       The investigation determined that a GSA employee schemed to defraud
                                       the government by falsifying invoices, misusing an accounting control log
                                       book, and forging the approving official’s signature on documents in order
                                       to cause overpayments to three vendors, including the owner of the
                                       automobile auction company. The employee contacted the vendors and
                                       told them the payments were in error and requested a check made
                                       payable to him for the overpayment. He then deposited the checks in his
                                       own bank account.

                                       On May 17, 2002, the GSA employee resigned his position as a
                                       transportation operations specialist and subsequently pled guilty to theft
                                       and conversion of Federal Government property. On September 10,
                                       2002, he was sentenced to 3 months in a halfway house, 3 months home
                                       detention, 5 years probation, and ordered to pay restitution in the amount
                                       of $26,645.

                                       Misuse of Charge Card
                                       An OIG investigation was initiated when information was received from a
                                       GSA employee that fraudulent charges were made on a Government
                                       Citibank Visa IMPAC charge card. The investigation revealed that an
                                       individual and his brother purchased a stereo and numerous items using
                                       fraudulent identifications and credit cards, including GSA charge cards.
                                       The investigation also disclosed that a bank representative had
                                       electronically mailed sensitive data, including charge card numbers, to the
                                       individual’s brother.

26 Semiannual Report to the Congress
Promoting and Protecting Integrity




     On April 24, 2002, agents of GSA OIG, the U.S. Secret Service, and the
     U.S. Postal Inspection Service arrested the individual for misuse of a
     credit card. On May 21, 2002, the bank representative was also arrested
     for misuse of a charge card. On June 13, 2002, the grand jury for the
     Southern District of New York indicted the individual, the bank
     representative, and the individual’s brother for fraudulent use of charge
     cards. An arrest warrant was issued for the individual’s brother, who
     voluntarily surrendered on October 17, 2002.

     Subsequently, the bank representative and the individual pled guilty to
     defrauding other persons through the use of stolen charge card accounts.
     The bank representative is scheduled to be sentenced on November 1,
     2002. A sentencing date has not been set for the individual.

     Identity Theft
     The OIG initiated an investigation after a GSA employee reported that her
     personal identifiers, such as date of birth, social security number, and
     address were used to cash checks totaling approximately $5,000. The
     investigation revealed that an individual wrote checks in the GSA
     employee’s name.

     On July 25, 2002, the individual was arrested for identity theft. On
     September 25, 2002, she pled guilty to identity theft and is scheduled to
     be sentenced on November 11, 2002.

     Integrity Awareness
     The OIG presents Integrity Awareness Briefings nationwide to educate
     GSA employees on their responsibilities for the prevention of fraud and
     abuse and to reinforce employees’ roles in helping to ensure the integrity
     of Agency operations.

     This period, we presented 22 briefings attended by 276 regional
     employees. These briefings explain the statutory mission of the OIG and
     the methods available for reporting suspected instances of wrongdoing.
     In addition, through case studies, the briefings make GSA employees
     aware of actual instances of fraud in GSA and other Federal agencies
     and thus help to prevent their recurrence. GSA employees are the first
     line of defense against fraud, abuse, and mismanagement. They are a
     valuable source of successful investigative information.

     Hotline
     The OIG Hotline provides an avenue for employees and other concerned
     citizens to report suspected wrongdoing. Hotline posters located in GSA-
     controlled buildings encourage employees to use the Hotline. We also
     developed and use our FraudNet Hotline platform to allow Internet



                                                    Office of Inspector General 27
                              Promoting and Protecting Integrity




                                       reporting of suspected wrongdoing. During this reporting period, we
                                       received 1,008 Hotline reports. Of these, 134 complaints warranted
                                       further GSA action, 13 warranted other agency action, and 861 did not
                                       warrant action.

                                       Significant Preaward and Other Audits
                                       The OIG’s preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
                                       nature of preaward audits distinguishes them from other audits. This
                                       program provides vital and current information to contracting officers,
                                       enabling them to significantly improve the government’s negotiating
                                       position and to realize millions of dollars in savings on negotiated
                                       contracts. This period, the OIG performed preaward audits of
                                       49 contracts with an estimated value of $805 million. The audit reports
                                       contained $142 million in financial recommendations.

                                       Three of the more significant Multiple Award Schedule contracts we
                                       audited had projected governmentwide sales totaling $604 million. The
                                       audit findings recommended that $83 million in funds be put to better use.
                                       The audits disclosed that these vendors offered prices to GSA that were
                                       not as favorable as the prices other customers receive from these
                                       vendors.

                                       We also audited several claims for increased costs. Three of the more
                                       significant projects audited contained proposed amounts totaling
                                       $76 million, and recommended adjustments of $46 million. Our audits of
                                       nine subcontractors on one construction project found that the claimed
                                       amounts were either overstated or not supported by the subcontractors’
                                       records. In our audits of a prime contractor and six subcontractors’
                                       claims for increased costs due to numerous changes and design defects,
                                       we adjusted labor and other costs because the claimed amounts were
                                       based on industry estimates rather than actual costs. In another audit of
                                       a delay claim, we advised the contracting officer that the subcontractors
                                       could not substantiate that the costs claimed were actually on the
                                       government project.

                                       Financial Statement Audit and Related Reviews
                                       With the passage of the Chief Financial Officers Act of 1990, the
                                       Congress, through legislation, and the Office of Management and Budget,
                                       through management circulars and bulletins, have established a
                                       framework of financial audits and reviews designed to foster overall
                                       enhancement of the Federal Government’s financial management and
                                       reporting practices. Summarized below are the results of financial and
                                       financially-related reviews that our office completed this period.




28 Semiannual Report to the Congress
Promoting and Protecting Integrity




     Financial Statement Audit for FY 2000 and FY 2001
     As in past years, this audit was performed by an independent public
     accounting (IPA) firm, with oversight, support work, and guidance
     provided by the OIG. One part of the audit focused on management’s
     assertion that it maintained effective internal control over financial
     reporting for GSA’s Consolidated and Combined Financial Statements for
     its primary revolving funds — the Federal Buildings Fund, the General
     Supply Fund, and the Information Technology Fund. The FY 2001
     Management Letter that was issued to the Chief Financial Officer
     discussed the IPA’s findings, recommendations, and suggestions for
     improving internal controls and other management issues that were
     observed during the FY 2001 financial statement audit. It identified four
     reportable conditions and no material weaknesses, as defined by
     established standards. The IPA reported that improvements are needed
     in:

     • GSA entity-wide system security management and oversight;

     • development, implementation, and change controls over GSA’s system
       environment;

     • controls over the integrity of rent data; and

     • controls over the transfer of construction-in-process costs to the
       building account.

     Internal Control Reviews
     The OIG, as part of the financial statement audit, performed internal
     control assessments of GSA’s environmental liabilities and the financial
     reporting for the Federal Systems Integration and Management Center
     (FEDSIM).

     State and Federal laws govern the cleanup of properties that contain
     environmental hazards. A number of buildings, structures, and properties
     owned or operated by GSA contain some type of environmental hazard
     that will eventually require environmental remediation. We reviewed the
     internal controls over the process GSA uses to identify and measure
     environmental liabilities for inclusion in the financial reports. In
     performing the audit, we obtained an understanding of the controls,
     assessed the control risk, and performed tests in order to determine
     whether the controls were effective. We found that internal controls
     appear to be operating effectively and efficiently in order to meet control
     objectives.

     FEDSIM is one of three national Client Support Centers that help
     customer agencies acquire and use information systems and technology.



                                                       Office of Inspector General 29
                              Promoting and Protecting Integrity




                                       It focuses on large-scale acquisition management and support, large-
                                       scale systems integration projects, office systems support, software
                                       management, and data center management. Our review of the revenue
                                       and disbursement cycles found that internal controls appear to effectively
                                       and efficiently meet the desired control objectives.

                                       Review of Payroll Operations
                                       As part of the financial statement audit, the OIG reviewed GSA’s internal
                                       controls over the payroll function, which is performed at the National
                                       Payroll Center (NPC) located within the Heartland Finance Center. NPC
                                       uses the automated Payroll Accounting and Reporting System to process
                                       payroll for approximately 26,000 employees at a number of independent
                                       agencies, presidential commissions, and GSA. In our opinion, internal
                                       controls over the payroll functions are operating effectively and efficiently
                                       to meet control objectives. Our test also indicated that payroll information
                                       was being accurately transmitted to the Office of Personnel Management.

                                       Office of Special Counsel’s Public Servant Award
                                       On June 26, 2002, the U.S. Office of Special Counsel (OSC), an
                                       independent Federal investigative and prosecutorial agency whose basic
                                       mission is to guard against prohibited personnel practices, with special
                                       emphasis on protecting government whistleblowers, announced its
                                       selection of Ms. Cindy L. Snyder, a former Administrative Assistant for
                                       Budget and Accounting at the National Capital Planning Commission
                                       (NCPC), as the third recipient of the Special Counsel’s Public Servant
                                       Award. The Special Counsel provided the award to Ms. Snyder in
                                       recognition of the important whistleblower disclosures that she made to
                                       OSC concerning violations of law, rule, or regulation and financial
                                       mismanagement at the NCPC.

                                       Ms. Snyder’s disclosures to OSC triggered reviews by the Inspector
                                       General for GSA and a private accounting firm. Because the Commission
                                       does not have its own Inspector General, GSA’s OIG periodically
                                       performs audits for it. The examinations revealed, among other things,
                                       significant financial mismanagement at NCPC, including violations of the
                                       Anti-Deficiency Act, a Federal law designed to ensure that agencies do
                                       not enter obligations or expend funds in excess of their appropriations.

                                       As a result of Ms. Snyder’s disclosures and the subsequent audits, the
                                       NCPC has implemented a wide variety of procedures to improve financial
                                       and budgetary accountability at the agency and to ensure that the
                                       procurement of printing services complies with the law. The NCPC also
                                       took disciplinary action against the Chief Operating Officer, whom the
                                       reports had identified as the party responsible for the majority of the
                                       violations.



30 Semiannual Report to the Congress
Promoting and Protecting Integrity




     In announcing the award, the Special Counsel observed that by coming
     forward to OSC to make her disclosures, Cindy Snyder made a real
     difference. Ms. Snyder’s disclosures resulted in comprehensive reviews,
     which revealed significant violations of law as well as financial
     mismanagement. As a direct result of Ms. Snyder’s whistleblowing there
     have been important reforms at NCPC, which we hope will help that
     agency maintain public trust and confidence in its operations in the future.

     Implementation Reviews
     Responsibility for implementing appropriate corrective action resulting
     from audit report recommendations rests with Agency management. The
     OIG performs, on a selective basis, independent reviews of the
     implementation actions to ensure that management is carrying out this
     responsibility according to established milestones. This period, the OIG
     performed two implementation reviews — one on recommendations in the
     December 19, 2000, Audit of Security Clearance Procedures for Child
     Care Center Employees and the other on the Review of General Services
     Administration Energy Conservation Program in the Greater Southwest
     Region, issued March 30, 2000. We found that implementation action
     was in accordance with management’s action plan for all
     recommendations.




                                                     Office of Inspector General 31
                               Governmentwide Policy Activities




                                       On a continuing basis, we provide advice and assistance on
                                       governmentwide policy matters to the Agency, as well as to other Federal
                                       agencies and Committees of Congress, in many different forums,
                                       including particularly the President’s Council on Integrity and Efficiency
                                       (PCIE). The PCIE was established by Executive Order to address
                                       governmentwide integrity, economy, and efficiency issues. In addition, as
                                       required by the Inspector General Act of 1978, we review existing and
                                       proposed legislation and regulations to determine their effect on the
                                       economy and efficiency of the Agency’s programs and operations and on
                                       the prevention and detection of fraud and mismanagement. Because of
                                       the central management role of the Agency in shaping governmentwide
                                       policies and programs, most of the legislation and regulations reviewed
                                       invariably impact governmentwide issues in areas such as procurement,
                                       travel, and government management and information technology
                                       systems.

Interagency                            This period, we provided advice and assistance to OMB on various
                                       procurement policy issues, particularly in the area of time-and-materials
Committees and                         or labor-hours and other services contracts. In addition, we participated
Working Groups                         on a number of interagency committees and working groups that deal
                                       with cross-cutting and governmentwide issues:

                                       • The Inspector General (IG) serves on the Human Resources and
                                         Legislation Committees of the President’s Council on Integrity and
                                         Efficiency (PCIE). The Human Resources Committee fosters
                                         educational opportunities for members of the IG community and assists
                                         in ensuring the professional development of OIG personnel. The
                                         Legislation Committee develops, coordinates, and represents to
                                         Congress official PCIE positions on particular legislative issues.

                                       • In June 2002, the OIG hosted and organized the PCIE’s Human
                                         Resources Committee’s Government Charge Card training for
                                         approximately 190 IG professionals from across the Federal
                                         Government. The training covered the fundamentals of the three
                                         government charge card programs, an overview of current issues
                                         surrounding the management of the programs, and information on best
                                         practices for auditors and investigators looking at their agency’s
                                         management of the programs.

                                       • The Assistant Inspector General for Investigations serves as the Chair
                                         of the Assistant Inspectors General for Investigations Subcommittee.
                                         This subcommittee reports to the PCIE Investigative Committee. The
                                         subcommittee deals with investigative issues that affect all OIG Offices
                                         of Investigations, such as statutory law enforcement, peer review, and
                                         coordinated assistance to the Department of Justice.




32 Semiannual Report to the Congress
Governmentwide Policy Activities




    • The Assistant Inspector General for Auditing represents all civilian
      government agencies on the Cost Accounting Standards Board, an
      independent board within OMB’s Office of Federal Procurement Policy,
      which promulgates, amends, and revises Cost Accounting Standards
      designed to achieve uniformity and consistency in cost accounting
      practices by individual government contractors.

    • The Counsel to the Inspector General has been participating on a
      working group sponsored by the Office of Federal Procurement Policy,
      part of OMB. At the request of the President to OMB, the working
      group is reviewing agency competition practices and how effectively
      they ensure access to government contracts.

    • Our TeamMate Technical Support Group participates in the TeamMate
      Federal Users Group and the PricewaterhouseCoopers TeamMate
      Users Group to discuss concerns or new challenges facing TeamMate
      users. TeamMate is an automated audit paperwork management
      system that should make the audit process more efficient.

    • OIG audit representatives participated in The President’s Council on
      Integrity and Efficiency (PCIE) IT Roundtable to address specialized
      security training and overall IT security issues based on IT audits and
      GISRA.

    • We participated in the Intergovernmental Information Security Audit
      Initiative, which is a joint project of the National State Auditors
      Association, the U.S. General Accounting Office, and Federal
      Inspectors General.

    • In July 2002, GSA’s Office of Governmentwide Policy convened a
      Governmentwide Per Diem Advisory Board composed of industry travel
      experts as well as public and private sector travel managers. The
      Board will review the current process and methodology used to
      establish the Federal per diem rates within the continental United
      States and will present recommendations for improvements to the
      process. The OIG has been providing support for the subcommittee
      that will recommend improvements to the per diem rate-setting process
      and/or methodology for meals, lodging, and incidental expenses. A
      second subcommittee will present recommendations for a nationwide
      government-lodging program. A report is due to GSA by December
      2002.




                                                   Office of Inspector General 33
                               Governmentwide Policy Activities




Legislation                            During this period, the OIG reviewed 267 legislative matters and
                                       34 proposed regulations and directives. The OIG addressed the following
                                       legislative items:

                                       • National Defense Authorization Act § 803 Implementation: Concerns
                                         Regarding Proliferation of Time-and-Materials/Labor-Hours Contracts.
                                         We provided a letter on July 9, 2002, to the Office of Federal
                                         Procurement Policy and the GSA Administrator detailing our concerns
                                         regarding the use of time-and-materials or labor-hours (T&M/LH) task
                                         orders under GSA’s Multiple Award Schedule (MAS) services contracts.
                                         Proposed language in the regulatory implementation of § 803 would
                                         have prohibited such T&M/LH task orders. These comments paralleled
                                         similar concerns we had relayed in the context of hearings the House
                                         Government Reform Committee, Technology and Procurement Policy
                                         Subcommittee held on a provision of H.R. 3832, the Services
                                         Acquisition Reform Act.

                                         In the letter, we noted our concerns regarding the use of T&M/LH
                                         contracts. Generally, we noted our view that the risks presented by
                                         such vehicles — that the contractor has little profit incentive and has
                                         minimal responsibility for performance costs — are similar to those
                                         presented by pure cost type contracts. We, therefore, recommended
                                         that any use of these vehicles be accompanied by greater government
                                         oversight, including payment protections and audit authorities.

                                       • Amended Version of Services Acquisition Reform Act, H.R. 3832. We
                                         provided comments on the amended version of H.R. 3832, the
                                         Services Acquisition Reform Act (SARA). We generally reiterated our
                                         prior concerns on the initial version of the SARA legislation. We noted
                                         that we were concerned that the bill would relax the definition of
                                         commercial items to include all commercial services, as well as any
                                         item sold by a company that qualified as a “commercial business
                                         entity.” We also noted our concerns with SARA’s apparent
                                         endorsement of the use of T&M/LH contracts to make services
                                         purchases.

                                       • GAO Report Comparing Ways Law Enforcement Authority is Granted
                                         to OIGs. We provided comments to the PCIE, for incorporation into a
                                         unified OIG community response, on GAO’s Report Comparing the
                                         Ways Law Enforcement Authority is granted to OIGs. The report
                                         compared the current deputation process through the U.S. Marshals
                                         Service to statutory law enforcement authorities conferred on three
                                         different OIGs, and concluded that the current deputation process
                                         afforded more oversight and coordination. Our comments questioned
                                         those conclusions, in large part, because we believe the oversight
                                         exercised by the Department of Justice under the current deputation



34 Semiannual Report to the Congress
              Governmentwide Policy Activities




                    mechanism is more theoretical than practical. We noted our belief that
                    a common statutory mechanism for all OIGs would provide for stronger
                    coordination and oversight.

Regulations       The OIG provided comments on the following proposed regulations:

                  • Proposed GSA Order on the “Payment of Expenses to Obtain
                    Professional Credentials.” We provided comments to GSA on a draft
                    order to provide policy and procedural guidance for GSA to pay for
                    professional credentials so as to support its employees in professional
                    achievements. We generally supported the Order but recommended a
                    few changes. First, we suggested that the Order should not set
                    Agency-wide standards for which occupations are to be covered. We
                    noted that components should have some flexibility in selecting
                    whether to pay for credentials based on work performed by that
                    component. Second, we recommended that the Order should not
                    provide for payment for membership fees in professional organizations,
                    unless the membership is required to maintain credentials. Our
                    concern was that payment of all membership fees, as seemingly
                    envisioned by the Order, would result in high and unnecessary costs to
                    the government. Third, we recommended that the Order should be
                    broadened. As written, the Order allowed for payment of expenses
                    related to professional credentials when the credential was required by
                    the job position. We commented that the Order should also provide for
                    payment when the professional credential would enhance on-the-job
                    performance.

                  • GSA Delegations of Authority Manual, Chapter 3, “Personnel
                    Management Authorities.” We provided comments on the proposed
                    revisions to Chapter 3 of the GSA Delegations of Authority Manual,
                    titled “Personnel Management Authorities.” We expressed our
                    concerns with two items in the proposed revision: the authority to
                    appoint applicants to Senior Executive Service (SES) positions, and
                    the authority to administer the oath to be taken by officers and
                    employees incident to their entrance on duty or other oaths required by
                    law in connection with employment. The proposed revision restricted
                    to the Chief People Officer the authority to appoint applicants to SES
                    positions; we noted that this authority as regards SES positions within
                    the OIG is vested by statute in the Inspector General. Similarly, the
                    proposed revision restricted to the Chief People Officer the authority to
                    administer oaths incident to employment; we pointed out that the OIG
                    has a personnel function independent from that of the Agency, and that
                    this function, which is also statutorily based, vests in the Inspector
                    General the authority to administer employment-related oaths.




                                                                 Office of Inspector General 35
                               Professional Assistance Services




                                       The General Accounting Office recently issued a revision to the
                                       independence standard contained in the Government Auditing Standards.
                                       This amendment prohibits Federal audit organizations from performing
                                       certain types of management consulting projects because they may call
                                       into question the independence of the auditors when performing
                                       subsequent audit work in the same area. Although our office, when
                                       working closely with GSA management, has always continued to maintain
                                       its independence, we ceased accepting consulting assignments and are
                                       carefully assessing other non-audit services to meet both the letter and
                                       the spirit of the new standard. We did provide some assistance services
                                       to GSA management and we continued our participation on Agency
                                       improvement task forces, committees, and working groups in an ex officio
                                       capacity.

                                       Assistance Services. These OIG services are designed to develop
                                       information useful to Agency managers who are responsible for making
                                       decisions and initiating program improvements. Typically, we identify
                                       benchmarks and analyze best practices used in both private industry and
                                       government agencies to determine if GSA is delivering comparable
                                       products and services as effectively as other provider entities. The
                                       reviews are usually initiated by the OIG, although management may
                                       request them as well, and the OIG staff always supervises the work. Our
                                       reports provide observations and conclusions, without recommending
                                       corrective actions. The following highlights one such review
                                       accomplished during this period:

                                         Household Goods Shipment Program. The Centralized Household
                                         Goods Traffic Management Program (CHAMP) is a service that GSA,
                                         through the Federal Supply Service (FSS), provides Federal civilian
                                         agencies in shipping the household goods of employees who are being
                                         relocated. The scope of the program covers shipments to all 50 states,
                                         Guam, the Virgin Islands, Puerto Rico, and 156 foreign countries. For
                                         calendar year 2000, the program was used for approximately
                                         13,600 moves; and for the first 6 months of calendar year 2001,
                                         approximately 6,200 moves.

                                         We performed a best practices review comparing features and
                                         requirements of CHAMP to programs of two other Federal agencies
                                         and eight private sector firms in an effort to identify possible areas of
                                         improvement. While the overall mission/goals of all the programs were
                                         similar, we noted specific differences between how relocations are
                                         accomplished using CHAMP and the other programs. For example:

                                         •    Private sector firms use either in-house personnel or third party
                                              companies to manage all or part of the relocation function. Under
                                              CHAMP, the customer agency’s transportation officer and/or the



36 Semiannual Report to the Congress
Professional Assistance Services




           relocating employee are responsible for the move unless the
           transportation officer contracts with a third party firm (via FSS’
           Multiple Award Schedule) to manage the relocation.

      •    Private sector firms use a limited number of carriers, generally
           between three and six. GSA has approved 268 service providers
           for CHAMP.

      •    Most private sector firms use a standard rate discount regardless
           of the route. CHAMP providers typically bid different discounts
           depending on the route.

      We also observed that because FSS personnel are not involved with
      the management of specific moves, GSA does not have good feedback
      on contractors’ performance, does not know which agencies are using
      the program, and is not in a position to be aware of problems that
      might be occurring with the moves.

      We noted that two other Federal agencies’ move programs (one of
      which was a pilot project) had many of the same features as the
      private sector programs.

    Task Forces, Committees, and Working Groups. The OIG provides
    advice and counsel to GSA while monitoring ongoing Agency initiatives.
    Our representatives advise management at the earliest possible
    opportunity of potential problems, help ensure that appropriate
    management controls are provided when installing new or modifying
    existing Agency systems, and offer possible solutions when addressing
    complex financial issues.

    Our direct participation with the Agency on task forces, committees, and
    working groups allows us to contribute our expertise and advice, while
    improving our own familiarity with the Agency’s rapidly changing systems.
    We also benefit by expanding our new initiatives within the Federal
    community. We nevertheless maintain our ability to independently audit
    and review programs. Our participation in the task forces is typically as a
    non-voting advisory member. We maintain a strict policy of excluding
    staff members who have served on developmental task forces from
    subsequent audits of the same subject areas.

    Some areas in which we have been involved this period include:

    • Single Audit Activities. The Single Audit Act established uniform
      entity-wide audit requirements for state and local governments
      receiving Federal awards. The non-Federal entities that receive




                                                     Office of Inspector General 37
                               Professional Assistance Services




                                         Federal awards under more than one Federal program are required to
                                         undergo a single audit. Each Federal agency monitors the non-
                                         Federal entity’s use of awards provided by the Agency and assesses
                                         the quality of the audits conducted relative to its program. The OIG
                                         monitors these activities as they relate to the personal property
                                         disposal program.

                                       • Chief Financial Officer’s (CFO) Two Digit Trading Partner Codes.
                                         The OIG has been monitoring the CFO’s efforts to develop
                                         methodologies and follow prescribed business rules to enable
                                         reconciliation of receivables and payables between agencies that sell
                                         products and/or services, as mandated by OMB.

                                       • The Information Technology (IT) Council. The Council monitors
                                         policies and programs to ensure IT consistency throughout the Agency.
                                         It is comprised of the Chief Information Officers of the various GSA
                                         Services and Staff Offices. Representatives of our office participate in
                                         meetings at the request of the Agency on such matters as systems
                                         controls, architecture, security, or new legislative requirements.

                                       • Federal Supply Service (FSS) Working Group. FSS has convened
                                         a working group to address certain negotiations and audit issues that
                                         were the subject of an OIG special report issued last year entitled
                                         “Multiple Award Schedule Pricing Practices.” The OIG is providing
                                         advice and assistance to FSS in its issuance of guidance to contracting
                                         officers and development of training initiatives on these issues.




38 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments




                                Audit Reports Issued
                                The OIG issued 88 audit reports during this reporting period. The
                                88 reports contained financial recommendations totaling $143,090,809,
                                including $142,001,646 in recommendations that funds be put to better
                                use and $1,089,163 in questioned costs. Due to GSA’s mission of
                                negotiating contracts for governmentwide supplies and services, most of
                                the savings from recommendations that funds be put to better use would
                                be applicable to other Federal agencies.

                                Management Decisions on Audit Reports
                                Table 1 summarizes the status of the universe of audits requiring
                                management decisions during this period, as well as the status of those
                                audits as of September 30, 2002. Two reports more than 6 months old
                                were awaiting management decisions as of September 30, 2002; both of
                                them were preaward audits, issued before February 10, 1996, which are
                                not subject to the 6-month management decision requirement. Table 1
                                does not include 3 reports issued to other agencies this period. Table 1
                                also does not include 6 reports excluded from the management decision
                                process because they pertain to ongoing investigations.



                 Table 1. Management Decisions on OIG Audits
                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 4/1/02
  Less than six months old                          23                  17               $ 49,662,562
  Six or more months old                             3                   2                    205,223
Reports issued this period                          85                  48                139,376,926
TOTAL                                              111                  67               $189,244,711
For which a management decision
was made during the reporting period
  Issued prior periods                              24                  18               $ 49,664,442
  Issued current period                             36                  13                 82,173,261
TOTAL                                               60                  31               $131,837,703
For which no management decision
had been made as of 9/30/02
  Less than six months old                          49                  35               $ 57,203,665
  Six or more months old                             2                   1                    203,343
TOTAL                                               51                  36               $ 57,407,008




                                                                              Office of Inspector General 39
                     Statistical Summary of OIG Accomplishments




                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing
                                       financial recommendations by category (funds to be put to better use or
                                       questioned costs).




                    Table 2. Management Decisions on OIG Audits with
                    Recommendations that Funds be Put to Better Use

                                                               No. of                     Financial
                                                              Reports                 Recommendations

       For which no management decision had
       been made as of 4/1/02
         Less than six months old                                16                    $ 49,607,065
         Six or more months old                                   1                         203,343
       Reports issued this period                                43                     138,287,763
       TOTAL                                                     60                    $188,098,171
       For which a management decision was
       made during the reporting period
         Recommendations agreed to by
         management based on proposed
         •management action                                      —                     $131,020,539
         •legislative action                                     —                               —
         Recommendations not agreed to
         by management                                           —                                 0
       TOTAL                                                     27                     $131,020,539
       For which no management decision had
       been made as of 9/30/02
         Less than six months old                                32                    $ 56,874,289
         Six or more months old                                   1                         203,343
       TOTAL                                                     33                    $ 57,077,632




40 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




           Table 3. Management Decisions on OIG Audits
                      with Questioned Costs

                                    No. of               Questioned
                                   Reports                 Costs

For which no management decision
had been made as of 4/1/02
  Less than six months old             1              $   55,497
  Six or more months old               1                   1,880
Reports issued this period             5               1,089,163
TOTAL                                  7              $1,146,540
For which a management decision
was made during the reporting
period
  Disallowed costs                    —               $ 799,608
  Costs not disallowed                —                  17,556
TOTAL                                  4              $ 817,164
For which no management decision
had been made as of 9/30/02
  Less than six months old             3              $ 329,376
  Six or more months old               0                      0
TOTAL                                  3              $ 329,376




                                                   Office of Inspector General 41
                       Statistical Summary of OIG Accomplishments




                                       Investigative Workload
                                       The OIG opened 95 investigative cases and closed 92 cases during this
                                       period. In addition, the OIG received and evaluated 56 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA
                                       officials on certain cases disclosing wrongdoing on the part of GSA
                                       employees, contractors, or private individuals doing business with the
                                       government.

                                Table 4. Summary of OIG Referrals

            Type of Referral                          Cases                                Subjects
            Criminal                                     40                                    61
            Civil                                         8                                    12
            Administrative                               91                                   142
            TOTAL                                      139                                    215


                                       In addition, the OIG made 13 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 28 cases (43 subjects) were accepted
                                       for criminal prosecution and 6 cases (8 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       23 indictments/informations and 19 successful prosecutions. OIG civil
                                       referrals resulted in 4 case settlements or judgments. Based on OIG
                                       administrative referrals, management debarred 33 contractors/individuals,
                                       suspended 11 contractors/individuals, and took 17 personnel actions
                                       against employees.




42 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments




                        Monetary Results
                        Table 5 presents the amounts of fines, penalties, settlements, judgments,
                        and restitutions payable to the U.S. Government as a result of criminal
                        and civil actions arising from OIG referrals.

                        In addition, the OIG had administrative recoveries of $1,347,033 during
                        the course of its investigations and recovered property with a fair market
                        value of $150,952.




                Table 5. Criminal and Civil Recoveries
                                             Criminal                         Civil

Fines and Penalties                      $   34,172                    $       —

Settlements and Judgments                         —                        192,345

Restitutions                              1,161,093                            —

TOTAL                                    $1,195,265                    $192,345




                                                                        Office of Inspector General 43
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                  Desktop Program for Office Products
process, the GSA Office of the Chief Financial Officer,
                                                            Period First Reported: October 1, 2001 to March 31, 2002
Office of the Controller, is responsible for tracking the
implementation of audit recommendations after a             The review focused on award contracts to the
management decision has been reached. That office           desktop program. The report contained one recom-
furnished the following status information.                 mendation; it has not been implemented.

Thirteen audits highlighted in prior reports to the         The recommendation involves having contracting
Congress have not yet been fully implemented; all are       officials obtain, analyze, and determine whether
being implemented in accordance with currently              government sales data would help improve the desktop
established milestones.                                     program. It is scheduled for completion by March 15,
                                                            2003.
Use of the Occupancy Agreement
Period First Reported: October 1, 2001 to March 31, 2002    Asbestos Management
The review examined rent billing records covered            Period First Reported: April 1, 2001 to September 30, 2001
by Occupancy Agreements (OA). The report contained          The review assessed the administrative aspects of
six recommendations; they have not been imple-              asbestos management in one region. The report
mented.                                                     contained two recommendations; one has been
                                                            implemented.
The recommendations involve establishing and
supporting the OA; considering an electronic signature      The remaining recommendation involves establishing
requirement; measuring the time an OA remains in            management control techniques. It is scheduled for
draft status; tracking the variance between OA              completion by January 15, 2003.
projected rent and actual billed rent; including enough
information on the OA to identify the space assigned;       PBS’ Fire Safety Risk Management
and providing OA coordination. They are scheduled for
                                                            Period First Reported: April 1, 2001 to September 30, 2001
completion between October 15, 2002 and January 15,
2003.                                                       The review evaluated fire safety risk management in
                                                            PBS facilities. The report contained one recommenda-
The Federal Security Risk Manager                           tion; it has not been implemented.
Program
Period First Reported: October 1, 2001 to March 31, 2002    The recommendation involves implementing a
                                                            comprehensive fire safety management system. The
The review focused on the first cycle of risk assess-       recommendation is scheduled for completion by
ments in the Federal Security Risk Manager Program.         November 15, 2002.
The report contained five recommendations; they have
not been implemented.                                       Electronic Commerce Systems
                                                            Security
The recommendations involve revisiting the
                                                            Period First Reported: April 1, 2001 to September 30, 2001
terminology and threat ratings; ensuring that security
officials have sufficient guidance to address emerging      The review examined nine selected electronic
threats; capturing information to ensure security           commerce systems. The report contained four
database requirements are met; improving funding            recommendations; they have not been implemented.
coordination; and addressing the Federal security risk
manager flaws to make the threat assessment                 The recommendations include establishing a process
performance measure more meaningful. They are               for reviewing system security requirements; providing
scheduled for completion between October 4, 2002            guidance to clarify GSA Order 2100.1; tasking
and April 15, 2003.                                         appropriate Agency officials with responsibility for


                                                                                         Office of Inspector General 47
                   Appendix I–Significant Audits from Prior Reports




GSA’s systems; and establishing a process to ensure        project plan, and establishing a project management
responsibilities of key security personnel.    The         team.      They are scheduled for completion
recommendations are scheduled for completion               between July 15, 2003 and October 15, 2003.
between December 15, 2002 and May 15, 2003.
                                                           Local Area Network Security Risks
Operating Equipment Inventories                            Period First Reported: April 1, 1999 to September 30, 1999
Period First Reported: October 1, 2000 to March 31, 2001
                                                           The review focused on the local area network (LAN)
The review focused on equipment maintenance                security. The report contained four recommendations;
maintained by contractors. The report contained two        two have been implemented.
recommendations; one has been implemented.
                                                           The remaining recommendations include establishing
The remaining recommendation involves identifying          processes for managing accounts and contingency
the responsibility for maintenance programs to             plans, and identifying controls for remote access to
contractors.   It is scheduled for completion by           LANs.    Both are scheduled for completion by
February 15, 2003.                                         May 15, 2003.

Contract Security Guard Program                            Security Standards for New Buildings
Period First Reported: October 1, 1999 to March 31, 2000   Period First Reported: October 1, 1998 to March 31, 1999
The review assessed the Contract Security Guard            The review evaluated security standards for new and
Program. The report contained eight recommenda-            renovated Federal buildings. The report contained two
tions; six have been implemented.                          recommendations; one has been implemented.

The remaining recommendations include developing a         The remaining recommendation involves creating
national training program, and witnessing firearm          security standards for newly acquired leased space. It
qualification sessions and tracking qualification status   is scheduled for completion by April 15, 2003.
of contract guards. They are scheduled for completion
by November 15, 2002.                                      Information Systems Security
                                                           Period First Reported: April 1, 1998 to September 30, 1998
Real Property Management
Information System                                         The review assessed the security measures of six
                                                           major GSA Internet and Intranet applications. The
Period First Reported: October 1, 1999 to March 31, 2000   report contained four recommendations; three have
The review evaluated the System for Tracking               been implemented.
and Administering Real Property (STAR). The report
contained four recommendations; one has been               The remaining recommendation involves specifying
implemented.                                               roles and responsibilities to ensure security.
                                                           It is scheduled for completion by February 15, 2003.
The remaining recommendations include identifying
capabilities needed in STAR, developing a




48 Semiannual Report to the Congress
                   Appendix I–Significant Audits from Prior Reports




Contract Workload Management
Period First Reported: October 1, 1997 to March 31, 1998
The review identified opportunities for improving
workload management. The report contained one
recommendation; it has not been implemented.

The recommendation involves the need to automate
key activities of the contracting process. It is
scheduled for completion by April 15, 2003.




                                                             Office of Inspector General 49
                               Appendix II–Audit Report Register

                                                                                        Financial
                                                                                   Recommendations
                                                                               Funds to         Questioned
Date of        Audit                                                          Be Put To       (Unsupported)
Report         Number                    Title                                Better Use          Costs


(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)

PBS Internal Audits
05/23/02       A020042         Review of Complaint by NCLN20, Inc.
                               Regarding Default of Contract Number
                               GS05P01GCD0009

07/24/02       A020107         Survey of GSA’s Support to FEMA

07/29/02       A010258         Review of Procurements Made by the
                               Denver Federal Center Service Center

07/30/02       A010184         Audit of PBS’ Outleasing Program, Great
                               Lakes Region

08/13/02       A020122         Audit of Security Process for Contract
                               Personnel in the National Capital Region

08/14/02       A020121         Review of Internal Controls            over
                               Environmental Liabilities

08/29/02       A020092         Follow-Up    Review of the Federal
                               Protective   Service’s Contract Guard
                               Program

09/11/02       A020215         Operational Issues Impacting the Planned
                               Transition of the Federal Protective Service
                               to the Department of Homeland Security

09/17/02       A020057         Audit of Southeast Sunbelt Region 4
                               Federal Protective Service’s Guard
                               Payment Procedures

09/18/02       A020166         Review of Procurements Made by the
                               Kansas Property Management Center

09/27/02       A020127         Advisory Review of PBS’s Usage of
                               Energy Savings Performance Contracts




50 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                          Recommendations
                                                                      Funds to         Questioned
Date of    Audit                                                     Be Put To       (Unsupported)
Report     Number              Title                                 Better Use          Costs


09/30/02   A010230    Audit of the Public Buildings Service, Great
                      Lakes Region, North Central States, Property
                      Management Center

09/30/02   A020102    Overview of Repair and Alterations Program

09/30/02   A020056    Audit of Controls Over Reimbursable Work
                      Authorizations Billing Practices in the
                      Greater Southwest Region

09/30/02   A020083    Audit of Guard Service Contracts, Federal
                      Protective Service, Region 9

PBS Contract Audits
04/03/02   A010263    Preaward Audit of a Claim: Island ADC, Inc.,
                      Subcontractor to Turner Construction
                      Company, Contract Number GS-02P-95-
                      DTC-0014

04/12/02   A020129    Audit of Claim for Increased Costs:
                      Schweiger Construction Company, Contract
                      Number GS-06P-96-GYD-0010

04/18/02   A010248    Preaward Audit of a Claim: LBL Skysystems,
                      Inc., Subcontractor to Turner Construction
                      Company, Contract Number GS-02P-95-
                      DTC-0014

04/29/02   A010262    Preaward Audit of a Claim: Coken Company,
                      Inc., Subcontractor to Turner Construction
                      Company, Contract Number GS-02P-95-
                      DTC-0014

04/29/02   A020154    Audit of Request for Equitable Adjustment:
                      Control Systems International, Contract
                      Number GS-04P-97-EXC-0015

04/30/02   A020101    Preaward Audit of a Claim, Additional
                      Change Items:     Turner Construction
                      Company, Contract Number GS-02P-95-
                      DTC-0014




                                                                          Office of Inspector General 51
                               Appendix II–Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put To       (Unsupported)
Report         Number                   Title                                Better Use          Costs


05/16/02       A020115         Limited Scope Audit of a Termination
                               Claim: Patriot Group Contractors, Inc.,
                               Contract Number GS-11P-99-MAC-0006

05/17/02       A020125         Audit of Acceleration Costs: J. Kokolakis
                               Contracting, Inc., Contract Number GS-
                               02P-98-DTC-0056N

05/17/02       A020134         Audit of Delay Costs:       J. Kokolakis
                               Contracting, Inc., Contract Number GS-
                               02P-98-DTC-0056N

05/22/02       A020157         Audit of Request for Equitable Adjustment:
                               William R. Nash, Inc., Contract Number
                               GS-04P-97-EXC-0015

05/28/02       A020158         Audit of Request for Equitable Adjustment:
                               Lynn Rai Electric, Inc., Contract Number
                               GS-04P-97-EXC-0015

05/29/02       A020124         Preaward Audit of a Claim for Increased
                               Costs:      Res-Com Insulation, Inc.,
                               Subcontractor        to   Morse      Diesel
                               International, Inc., New U.S. Courthouse &
                               Federal Building, Sacramento, California,
                               Contract Number GS-09P-95-KTC-0032

05/29/02       A020109         Preaward Audit of a Claim: Schindler
                               Elevator Corporation, Subcontractor to
                               Turner Construction Company, Contract
                               Number GS-02P-95-DTC-0014

05/29/02       A020152         Preaward Audit of a Termination
                               Settlement Proposal: Central Elevator,
                               Inc., Contract Number GS-02P-99-DTC-
                               0016

05/30/02       A020155         Audit of Request for Equitable Adjustment:
                               Bay Mechanical, Inc., Contract Number
                               GS-04P-97-EXC-0015

05/31/02       A020156         Audit of Request for Equitable Adjustment:
                               Mechanical Insulations, Inc., Contract
                               Number GS-04P-97-EXC-0015



52 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                              Financial
                                                                         Recommendations
                                                                     Funds to         Questioned
Date of    Audit                                                    Be Put To       (Unsupported)
Report     Number             Title                                 Better Use          Costs


06/06/02   A020132   Audit of Claim for Increased Costs: Dick
                     Corporation, Contract Number GS-05P-97-
                     GBC-0011

06/06/02   A020142   Audit of Claim for Increased Costs: Mohawk
                     Re-Bar Services, Inc., Subcontractor to Dick
                     Corporation, Contract Number GS-05P-97-
                     GBC-0011

06/06/02   A020141   Audit of Claim for Increased Costs: The
                     Albert M. Higley Co., Subcontractor to Dick
                     Corporation, Contract Number GS-05P-97-
                     GBC-0011

06/07/02   A020079   Audit of Request for Equitable Adjustment:
                     Atlantic Coast Mechanical, Inc., Contract
                     Number GS-04P-97-EXC-0015

06/12/02   A020097   Preaward Audit of a Claim for Increased
                     Costs: Artisans G & H Fixtures, Inc.,
                     Subcontractor to Morse Diesel International,
                     Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract
                     Number GS-09P-95-KTC-0032

06/21/02   A020174   Preaward Audit of Architect and Engineering
                     Services Contract: Cagley & Associates,
                     Inc., Solicitation Number GS-11P-01-YTD-
                     0319

06/27/02   A010239   Preaward Audit of a Claim:      Turner
                     Construction Company, Contract Number
                     GS-02P-95-DTC-0014

07/16/02   A020191   Preaward Audit of Supplemental Architect
                     and Engineering Contract: McMullan &
                     Associates, Inc., Solicitation Number GS-
                     11P-01-YTD-0319

07/30/02   A020086   Preaward Audit of a Claim for Increased
                     Costs: Raymond Interior Systems North,
                     Subcontractor to Morse Diesel International,
                     Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract
                     Number GS-09P-95-KTC-0032


                                                                         Office of Inspector General 53
                               Appendix II–Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put To       (Unsupported)
Report         Number                   Title                                Better Use          Costs


08/01/02       A020153         Preaward Audit of a Termination
                               Settlement Proposal: L&H Construction
                               Co., Inc., Contract Number GS-02P-99-
                               DTC-0013

08/06/02       A020207         Preaward Audit of Architect-Engineer
                               Design Services Contract: Goody, Clancy
                               & Associates, Inc., Solicitation Number GS-
                               01P-BZC-0005

08/07/02       A020173         Preaward Audit of a CQM Proposal: CCJN
                               & Company, Architects & Planners, P.C.,
                               Requisition/Procurement Request Number
                               2PMC-U-02-CQM

08/12/02       A020211         Audit of Supplemental Architect and
                               Engineering Services Contract: DNK
                               Architects, Inc., Contract Number
                               GS05P02GAD0129

08/12/02       A020119         Audit of Request for Equitable Adjustment:
                               Coken Company, Inc., Contract Number
                               GS-04P-97-EXC-0015

08/26/02       A020175         Preaward Audit of a Termination
                               Settlement Proposal:       Knightsbridge
                               Construction Corp., Contract Number GS-
                               02P-01-PCU-0035

08/30/02       A020187         Preaward Audit of Architect and
                               Engineering Services Contract: Smith-
                               Miller & Hawkinson Architects, LLP,
                               Contract Number GS-02P-02-DTC-0012

09/03/02       A020114         Audit of Claim for Increased Costs:
                               Cleveland        Construction,     Inc.,
                               Subcontractor to Clark Construction
                               Group, Inc., Contract Number GS-04P-97-
                               EXC-0015

09/04/02       A020180         Preaward Audit of Architect and
                               Engineering Services Contract: Adtek
                               Engineering, Inc., Solicitation Number GS-
                               11P-01-YTD-0319



54 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                          Recommendations
                                                                      Funds to         Questioned
Date of    Audit                                                     Be Put To       (Unsupported)
Report     Number              Title                                 Better Use          Costs


09/12/02   A020184    Audit of Request for Equitable Adjustment:
                      Atlantic Coast Mechanical, Inc., Contract
                      Number GS-04P-97-EXC-0015

09/13/02   A020225    Preaward Audit of Supplemental Architect
                      and Engineering Services Contract:
                      Architura Corporation, Solicitation Number
                      GS05P02GAD0091

09/24/02   A020196    Preaward Audit of Architect and Engineering
                      Services Contract: BEI Structural Engineers,
                      Inc., Solicitation Number GS-11P-01-YTD-
                      0319

09/26/02   A020201    Preaward Audit of a Claim: Almar Plumbing
                      and Heating Corp., Subcontractor to Turner
                      Construction Company, Contract Number
                      GS-02P-95-DTC-0014

FSS Internal Audits
04/17/02   A020040    Management      Advisory      Report    on
                      Assessment of Overseas Travel Regulations,
                      Allowances, and Differentials, Pacific Rim
                      Region

04/23/02   A010204    Audit of FSS’s Contractor Responsibility
                      Determinations

05/16/02   A010255    Audit of Personal Property Donations
                      Northwest/Arctic Region

06/25/02   A020104    Review of Delinquent Payments from
                      NIB/NISH Contractors

09/09/02   A020128    Review of the Feasibility of Retrieving
                      Expense and Revenue by Vehicle from the
                      Financial System

09/26/02   A010171    Advisory Review of GSA’s Household Goods
                      Shipment Program




                                                                          Office of Inspector General 55
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                 Recommendations
                                                                             Funds to         Questioned
Date of        Audit                                                        Be Put To       (Unsupported)
Report         Number                   Title                               Better Use          Costs


FSS Contract Audits
04/11/02       A60648          Postaward Audit of Multiple Award                               $592,556
                               Schedule Contract:    Gaylord Bros.,
                               Contract Numbers GS-00F-3918A & GS-
                               00F-3919A

04/16/02       A010102         Interim Postaward Audit of Multiple Award                       $167,231
                               Schedule Contract: Sears Contract Sales,
                               Contract Number GS-21F-0003J

05/23/02       A020159         Limited Audit of Termination Proposal:
                               Sport Supply Group, Inc., Amended
                               Purchase Order Number VPN-B-A8257-IV

06/10/02       A020123         Interim Period Postaward Audit of Multiple
                               Award Schedule Contracts:          Ansley
                               Business Materials, GSA Contract
                               Numbers GS-15F-9507C and GS-14F-
                               0679G

06/18/02       A010223         Interim Period Postaward Audit of Multiple
                               Award Schedule Contract: Ecolab, Inc.,
                               Contract Number GS-10F-7771A

07/02/02       A020131         Preaward Audit of Multiple Award Schedule
                               Contract Extension through July 31, 2007:
                               Avaya, Incorporated, Contract Number
                               GS-35F-4321D

07/08/02       A020094         Preaward Audit of Multiple Award Schedule
                               Contract: QSS Group, Inc., Solicitation
                               Number FCIS-JB-980001-B

07/11/02       A020065         Preaward Audit of Multiple Award Schedule
                               Contract: Danka Office Imaging Company,
                               Solicitation Number FCGE-C1-00-0001-B

07/29/02       A010180         Interim Postaward Audit of Multiple Award                       $283,559
                               Schedule Contract: Maytag Appliances
                               Sales Co., Contract Number GS-21F-
                               0001J




56 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                                  Financial
                                                                             Recommendations
                                                                         Funds to         Questioned
Date of    Audit                                                        Be Put To       (Unsupported)
Report     Number                Title                                  Better Use          Costs


07/31/02   A020145      Preaward Audit of Multiple Award Schedule
                        Contract: C & E Services, Inc., Solicitation
                        Number 7FXP-D4-01-0539-B

09/26/02   A020066      Limited Scope Postaward Audit of Multiple                                $1,351
                        Award Schedule Contract: Danka Office
                        Imaging Company

09/27/02   A020212      Preaward Audit of Multiple Award Schedule
                        Contract: Kar Products, LLC., Solicitation
                        Number 7FXP-D4-01-0539-B

FTS Internal Audits
08/27/02   A020185      Audit of Federal Technology Service
                        Financial  Controls  over Information
                        Technology Solutions

09/27/02   A010238      Review of the FTS2001 Billing System,
                        Federal Technology Service

FTS Contract Audits
07/11/02   A020194      Preaward Audit of Cost or Pricing Data:
                        Infopro Incorporated, Solicitation Number
                        GSC-TFMG-02-M038

08/05/02   A020193      Preaward Audit of Cost or Pricing Data: CITI,
                        Solicitation Number GSC-TFMG-02-M038

Other Internal Audits
05/10/02   A010187      Audit     of    the     General    Services
                        Administration’s Fiscal Years 2001 and 2000
                        Financial Statements

07/16/02   A010268      Audit of GSA’s Inventorying Process for the
                        Federal Activities Inventory Reform Act

08/05/02   A010257      Review of GSA’s Awards Program

08/09/02   A010050      Audit of the Administration of the Pegasys
                        Project by the Office of the Chief Financial
                        Officer




                                                                             Office of Inspector General 57
                               Appendix II–Audit Report Register

                                                                                        Financial
                                                                                   Recommendations
                                                                               Funds to         Questioned
Date of        Audit                                                          Be Put To       (Unsupported)
Report         Number                    Title                                Better Use          Costs


08/30/02       A010029         Feddesk’s Online Services Require a Risk
                               Assessment and Careful Consideration of
                               User Requirements

09/11/02       A020163         Review of Payroll Internal Controls-
                               FY 2002

09/26/02       A020011         Audit of GSA’s Electronic Mail System
                               Security

09/30/02       A020112         Review of Controls over Purchase Card
                               Program for the Greater Southwest
                               Region’s Federal Supply Service and
                               Federal Technology Service

09/30/02       A020168         Audit of Management Controls over
                               Recovery Auditing Services Administered
                               by the Office of the Chief Financial Officer

09/30/02       A020147         Government Information Security Reform
                               Act GSA OIG Annual Report for FY 2002

Non-GSA Contract Audits
06/14/02       A020088         Audit of Contract Cost:      Computer
                               Sciences Corporation, Contract Number
                               GS00K96AJD0012

08/09/02       A020198         Preaward Audit of Cost or Pricing Data:
                               Shell Oil Company

09/30/02       A020235         Preaward Audit of Cost or Pricing Data:
                               Shell Oil Company




58 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
11/01/96       A21882          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                               September 30, 1991

11/01/96       A31851          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02598 for the Period August 26, 1988 Through
                               March 31, 1991

11/01/96       A31865          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02046 for the Period December 4, 1987 Through
                               September 30, 1990

03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

08/22/97       A70646          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                               GS-02P-94-CUC-0070(N)




                                                                                         Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


09/22/97        A70649          Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                                Beacon/Pro Con, Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97        A71526          Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                                Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                                January 31, 2001

10/23/97        A70655          Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor
                                to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/24/97        A70660          Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                                Contract Number GS-02P-94-CUC-0070(N)

11/12/97        A70656          Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                                Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97        A22536          Postaward Audit of Multiple Award Schedule Contract:        Ingres Corporation,
                                Contract Number GS00K89AGS5589

11/26/97        A32476          Limited Audit of Government Billings:    Ingres Corporation, Contract Number
                                GS00K89AGS5589

12/24/97        A80602          Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                                Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98        A80604          Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                                Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98        A80608          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                                GS-02P-94-CUC-0070(N)

02/05/98        A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                                Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                                CUC-0070(N)

02/11/98        A80607          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                                02P-94-CUC-0070(N)

03/19/98        A81515          Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                                Contract Number GS-07P-92-HUC-0017

04/13/98        A80621          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                                02P-94-CUC-0070 (N)

05/27/98        A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                Contract Number GS-00F-07010




60 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


06/17/98   A82441    Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                     Contract Number GS-09P-95-KTC-0010

07/17/98   A60934    Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems,
                     Inc., Contract Number GS-00F-0002A for the Interim Period October 8, 1992
                     Through February 28, 1997

09/04/98   A990302   Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                     Systems, Contract Number GS-00F-76574

09/22/98   A80931    Preaward Review of Multiple Award Schedule Contract For The Extension Period
                     April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                     Contract Number GS-35F-5169H

09/24/98   A82456    Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                     Contract Number GS-07P-95-HUC-0068

10/13/98   A80636    Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                     Number GS-02P-96-DTC-0033

11/13/98   A82471    Preaward Audit of a Claim for Increased Costs:      Hensel Phelps Construction
                     Company, Contract Number GS-08P-96-JFC-0006

11/16/98   A80646    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070(N)

12/15/98   A82472    Preaward Audit of a Claim for Increased Costs: Trautman & Shreve, Inc.,
                     Subcontractor to Hensel Phelps Construction Company, Contract Number GS-
                     08P-96-JFC-0006

02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/17/99   A995100   Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                     Inc., Contract Number GS-03P-96-DXC-0021

03/24/99   A995128   Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                     Morse Diesel International, Inc., Contract Number GS06P95GZC0501

03/30/99   A995150   Preaward Audit of Supplemental Architect and Engineering Services Contract;
                     Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                     PLD-0015(N)

04/02/99   A995182   Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                     Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)




                                                                          Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


05/05/99        A995151         Preaward Audit of Supplemental Architect and Engineering Services Contract:
                                Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

06/08/99        A995192         Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                                1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                                Number GS-26F-1018B

06/15/99        A42113          Postaward Audit of Multiple Award Schedule Contract:        Herman Miller Inc.,
                                Contract Number GS-00F-07000

06/15/99        A995171         Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                                EMN-1999-MO-2032 & EMN-1999-MO-2036

06/18/99        A995220         Audit of Claim for Increased Costs: PM Realty Group, Ltd., Contract Number
                                GS05P96GAC0187

06/22/99        A995164         Preaward Audit of Multiple Award Schedule Contract:         Compaq Computer
                                Corporation, Extension to Contract Number GS-35F-4544G

06/24/99        A995231         Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                GS-02P-95-DTC-0041(N)

07/07/99        A995249         Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                                Number GS-02P-95-DTC-0041(N)

07/07/99        A995209         Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                                92CUC0029(N)

07/30/99        A995173         Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                                1999-MO-2032 & EMN-1999-MO-2036

08/12/99        A995215         Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                                & EMN-1999-MO-2036

09/09/99        A995283         Preaward Review of Multiple Award Schedule Contract:        National Education
                                Training Group, Inc., Contract Number GS-02B-22885

09/15/99        A52534          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                                Contract Number GS00K91AGS5288

09/15/99        A52565          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                                Contract Number GS00K91AGS5288 (PS01)

09/15/99        A52566          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                                Contract Number GS00K91AGS5288 (PS02)




62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


09/23/99   A995296   Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                     Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                     2004

10/04/99   A995275   Preaward Audit of Change Order Proposal to Contract Number GS-
                     02P93CUC0071 for the Final Phase of the African Burial Ground Project, Howard
                     University

10/13/99   A995262   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99   A995278   Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                     Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99   A995272   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99   A995271   Preaward Audit of Architect and Engineering Services Contract: HLW International
                     LLP, Contract Number GS-02P-93-CUC-0062

11/29/99   A995304   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     October 1, 1999 Through September 30, 2004: Coastal Video Communications
                     Corp., Contract Number GS-02F-9309C

11/30/99   A995289   Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                     Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                     Number GS-02P-93-CUC-0062

12/08/99   A995330   Preaward Audit of Multiple Award Schedule Contract:         Caswell International
                     Corporation, Contract Number GS-02F-0434D

01/07/00   A000821   Preaward Audit of the Extension of Multiple Award Schedule Contract Number GS-
                     02F-1407H: Development Dimensions International, Inc.

01/11/00   A000819   Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                     Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                     93-CUC-0062

02/08/00   A995167   Price Adjustments on Multiple Award Schedule Contract: National Education
                     Training Group, Inc., Contract Number GS-02F-0429D for the Interim Period March
                     1, 2000 Through March 31, 2000

02/15/00   A40910    Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                     Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992




                                                                            Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


02/17/00        A000923         Preaward Audit of Multiple Award Schedule Contract:        Shamrock Scientific
                                Specialty Systems, Inc., Contract Number GS-14F-9732C

03/02/00        A000934         Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                                Inc., Contract Number GS-14F-0150D

03/06/00        A000948         Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                                Number GS-14F-0161D

03/06/00        A000963         Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                                96-DTC-0033

03/09/00        A000911         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                                Contract Number GS-14F-9734C

03/10/00        A000936         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                                February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc.,
                                Contract Number GS-14F-0177D

03/29/00        A81830          Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                                March 8, 1991 Through February 29, 1996

03/29/00        A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                                Period March 1, 1996 Through April 30, 1998

04/04/00        A000943         Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/17/00        A000889         Preaward Audit of a Claim for Increased Costs: Italian Marble and Tile Company,
                                Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                                U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/25/00        A000975         Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                                Contract Number GS-14F-0193D

05/02/00        A000918         Preaward Audit of a Claim for Increased Costs: Morrow-Meadows Corporation,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/08/00        A000944         Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company,
                                Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                                U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012




64 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


05/11/00   A000950   Preaward Audit of a Claim for Increased Costs: Moon and Crockett Plumbing
                     Corporation, Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                     Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                     KTC-0012

05/11/00   A000993   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

05/16/00   A001007   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Franklin Covey, Contract Number
                     GS-14F-9729C

05/18/00   A000961   Preaward Audit of a Claim for Increased Costs: Washington Iron Works,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/18/00   A001009   Limited Postaward Audit of Multiple Award Schedule Contract:        Day Runner,
                     Incorporated, Contract Number GS-14F-0193D

05/25/00   A000955   Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                     GS-23F-98006

05/26/00   A000853   Preaward Audit of a Claim for Increased Costs: Ray Wilson Company, Ronald
                     Reagan Federal Building & U.S. Courthouse, Santa Ana, California, Contract
                     Number GS-09P-95-KTC-0012

06/01/00   A000971   Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                     Triangle Project

06/27/00   A000860   Interim Postaward Audit: Voyager Fleet Systems, Inc.’s Compliance with Fuel Tax
                     Requirements under Contract Number GS-23F-98006

06/30/00   A001000   Limited Scope Postaward Audit: AOC Solutions, Inc., Contract Number GS-23F-
                     98006

07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

07/27/00   A001028   Limited Review of Contract Extension Claim: International Services, Inc., Contract
                     Number GS-02P-94-CTD-0141

07/28/00   A000916   Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012




                                                                           Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


08/01/00        A001001         Preaward Audit of a Claim for Increased Costs: Aztec Fire Protection, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/23/00        A001018         Preaward Audit of a Claim for Increased Costs: Borbon, Inc., Subcontractor to Ray
                                Wilson Company, Ronald Reagan Federal Building & U.S. Courthouse, Santa Ana,
                                California, Contract Number GS-09P-95-KTC-0012

08/24/00        A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/28/00        A001023         Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/31/00        A001044         Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

09/28/00        A001051         Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Solicitation
                                Number FCIS-JB-980001B-03-23-98

10/17/00        A001024         Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/25/00        A001098         Preaward Audit of a Claim for Increased Costs: Well-Bilt Aluminum Products,
                                Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                                Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

10/30/00        A000942         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00        A001082         Preaward Audit of a Claim for Increased Costs: Invensys Building Systems, Inc.,
                                Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                                Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                                KTC-0012

11/08/00        A001085         Preaward Audit of a Claim for Increased Costs: D. Burke Mechanical Corp.,
                                Second Tier Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                                Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                                KTC-0012

11/09/00        A001078         Preaward Audit of a Claim (Unresolved Change Orders): Warren Electrical
                                Construction Corporation, Subcontractor to Archer-Western Contractors, Ltd.,
                                Contract Number GS-03P-96-DXC-0017




66 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


12/07/00   A001025   Preaward Audit of a Claim for Increased Costs: Aztec Contracting, Inc.,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

12/13/00   A010047   Preaward Audit of Claim: Culpepper Construction Company, Inc., Contract
                     Number GS-04P-96-EXC-0033

12/21/00   A42160    Postaward Audit of Multiple Award Schedule Contract: Storage Technology
                     Corporation, Contract Number GS00K92AGS5574

01/10/01   A001092   Audit of Billings under Contract Number GS06P99GZC0304: Wayne Automatic
                     Sprinkler Corporation, Subcontractor to Fire Assurance, Inc.

01/10/01   A001021   Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                     Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-0
                     322J

01/10/01   A001021   Postaward Audit of Multiple Award Schedule Contract and Industrial Funding Fee:
                     Merant, Inc. for the Interim Period March 26, 1999 Through September 30, 2000,
                     Contract Number GS-35F-0322J

01/25/01   A001081   Preaward Audit of a Claim for Increased Costs: Coken Company, Inc.,
                     Subcontractor to Dick Corporation, U.S. Courthouse & Federal Building, Phoenix,
                     Arizona, Contract Number GS-09P-96-KTC-0070

01/29/01   A000909   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

02/06/01   A010094   Preaward Audit of a Claim: Smith & Oby Company, Contract Number GS-05P-99-
                     GBC-0025

02/08/01   A010089   Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                     Courthouse, Pensacola, FL, Lease Number GS-04B-35055

02/12/01   A001047   Preaward Audit of a Claim (Time Impact Costs): Warren Electrical Construction
                     Corporation, Subcontractor to Archer-Western Contractors, Ltd., Contract Number
                     GS-03P-96-DXC-0017

02/15/01   A001072   Audit of Claim for Increased Costs: Archer-Western Contractors, Ltd., Contract
                     Number GS-03P-96-DXC-0017

02/28/01   A010093   Preaward Audit of a Change Order Proposal:       J. Kokolakis Contracting, Inc.,
                     Contract Number GS-02P-98-DTC-0056N

03/02/01   A010099   Preaward Audit of Multiple Award Schedule Contract: Security Engineered
                     Machinery Company, Incorporated, Solicitation Number FCO-00-CORP-0000C




                                                                           Office of Inspector General 67
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


03/07/01        A010100         Audit of Claim for Unresolved Change Orders: Archer-Western Contractors, Ltd.,
                                Contract Number GS-03P-96-DXC-0017

03/20/01        A001119         Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                                99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01        A010169         Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                                Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01        A010127         Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                                Inc.

05/11/01        A010128         Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                                J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/18/01        A010157         Preaward Audit of a Claim: Owen, Melbye & Rohlff Building Partnership, Lease
                                Number GS-09B-97243

05/23/01        A010160         Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                                Number 2PCB-CM-010174

05/30/01        A010175         Preaward Audit of Cost or Pricing Data: Caswell International Corporation, Contract
                                Number GS-02F-0434D

05/31/01        A010118         Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                                Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                                98-KTC-0020

06/06/01        A000965         Limited Scope Postaward Audit of Multiple Award Schedule Contract for the Period
                                July 1, 1999 Through December 31, 1999: Franklin Covey, Contract Number GS-
                                14F-9729C

06/19/01        A001113         Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                                GS-23F-98006 for the Interim Period November 30, 1998 Through December 31,
                                2000

07/03/01        A010168         Audit of Claim for Increased Costs: C.W. Fentress J.H. Bradburn and Associates,
                                P.C., Contract Number GS-07P-91-JXC-0062

07/10/01        A010201         Preaward Audit of Multiple Award Schedule Contract: ABM Federal Sales,
                                Solicitation Number FCGE-C1-00-0001-B

07/31/01        A001055         Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014




68 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


08/14/01   A010222   Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                     Solicitation Number GS-09P-00-KTC-0088

08/16/01   A010122   Interim Postaward Audit of Multiple Award Schedule Contract: ABM, Inc., Contract
                     Number GS-26F-1002B

08/30/01   A010192   Postaward Audit of Industrial Funding Fee: Broadway Sporting Goods Co., Inc.,
                     Contract Numbers GS-07F-9870H and GS-07F-8552C

09/05/01   A010193   Audit of Claim for Increased Costs: Woodcraft Manufacturing, Inc., Contract
                     Number GS-04P-96-EXC-0020

09/07/01   A010183   Audit of Claim for Increased Costs: Avalotis Corporation, Contract Number GS-
                     04P-96-EXC-0020

09/17/01   A010221   Preaward Audit of Multiple Award Schedule Contract: Konica Business
                     Technologies, Inc., Solicitation Number FCGE-C100-0001-B

09/26/01   A010253   Price Adjustments on Multiple Award Schedule Contract: TransUnion Corporation,
                     Contract Number GS-22F-9602D for the Interim Period November 1, 2001 Through
                     April 30, 2005

09/26/01   A010224   Preaward Audit of Multiple Award Schedule Contract: Oce Office Systems,
                     Solicitation Number FCGE-C1-00-0001-B

09/27/01   A010206   Audit of Actual Cost Incurred to Determine Shared Savings Under Phase I of
                     Contract Number GS-04P-97-EXC-0005: Whiting-Turner Contracting Company

09/28/01   A010254   Audit of Payments: Paragon Systems Contract Number GS-04P-98-EYC-0117

09/28/01   A010252   Limited Scope Postaward Audit Review of Industrial Funding Fee Remittances:
                     ABM, Inc., Various GSA Multiple Award Schedule Contract Numbers




                                                                          Office of Inspector General 69
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                           Projected Final
Report         Number                                         Title                             Action Date



Internal Audits
12/02/96        A63019          Audit of the PAPCAP Price Adjustments                                12/15/03

03/30/98        A83007          Follow-up Review of the Contract Workload Management                04/15/03

09/30/98        A72705          Arthur Andersen LLP, Fiscal Year 1997 Comments and                      Being
                                Suggestions for Consideration (Management letter)                     revised

03/24/99        A995025         Audit of Security Measures for New and Renovated Federal             04/15/03
                                Facilities

07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year            01/15/04
                                1998 Financial Statement Audit

09/24/99        A83602          GSA’s Information Systems Security Has Not Kept Pace With               Being
                                Increasing Internet and Intranet Risks                                revised

09/30/99        A995016         Security Weaknesses Place GSA’s Local Area Networks at Undue            Being
                                Risk                                                                  revised

03/28/00        A995175         Audit of the Federal Protective Service’s Contract Guard Program     11/15/02

03/31/00        A995010         PBS Needs to Complete STAR Development and Implement
                                Management and System Controls to Fully Realize Improved             10/15/03
                                Capabilities

08/02/00        A995201         PricewaterhouseCoopers LLP Management Letter Fiscal Year             01/15/03
                                1999 Financial Statement Audit

03/21/01        A001063         Review of Internal Controls Over Smart Cards                            Being
                                                                                                      revised


03/27/01        A000968         Review of Operating Equipment Inventories: Public Buildings         10/15/02
                                Service, New England Region

05/29/01        A001012         PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and Year-        03/15/03
                                End Management Letters

06/21/01        A000811         GSA’s Increasing use of Electronic Commerce Systems Requires        11/15/02
                                Improved Security

09/06/01        A010091         Audit of PBS’ Asbestos Management Program in the National           01/15/03
                                Capital Region




70 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit                                                                      Projected Final
Report     Number                                    Title                             Action Date


09/18/01   A001112   Audit of PBS’s Fire Safety Activities                                   01/15/03

09/28/01   A010044   Audit of the Public Buildings Service’s Asset Business Plans            06/15/03




                                                                           Office of Inspector General 71
                                    Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                 • Efforts continue to enhance the Accounts
                                                              Receivable Claims System and the Billing
Collection                                                    Accounts Receivable Tracking system, making them
During the period April 1, 2002 through September 30,         better tools for collection technicians and enabling
2002, GSA efforts to improve debt collection and              them to provide better service to their
reduce the amount of debt written off as uncollectible        customers.
focused on upgrading the collection function and
enhancing debt management.           These activities       • GSA has been working with Treasury’s Financial
included the following:                                       Management Service to remove all non-paying
                                                              claims over 2 years old from open receivables. This
• From April 1, 2002 through September 30, 2002,              will give us a clearer picture of our workload and
                                                              help us concentrate on collectible receivables. We
  GSA Finance Centers referred over $1.4 million of
                                                              are also implementing a plan to review and contact
  delinquent non-Federal claims to the U.S.
                                                              delinquent accounts on a quarterly basis. This will
  Department of the Treasury (Treasury) for cross-
                                                              ensure every effort has been made to collect a debt
  servicing collection activities. Collections on these
                                                              before it becomes 2 years old and is written off as
  claims exceed $170 million. Administrative offsets          uncollectible.
  have resulted in additional collections of
  $6.6 million. GSA also collects non-Federal claims        • GSA is developing a better process to ensure
  using Pre-Authorized Debits (PADs). From April 1,           restitution payments are properly accounted for and
  2002 to September 30, 2002, 22 PADs totaling                booked in a timely manner. The Finance Centers
  $9,675 were processed.                                      were not being notified when restitution was ordered
                                                              and monthly installment payments were coming to
• GSA also successfully negotiated settlements and            GSA unidentified. We were not able to determine
  collected over $1.3 million in delinquent billings from     when money was due GSA or how to apply the
  the National Institute for the Blind/National Institute     payments. With these new procedures, the Finance
  for the Severely Handicapped (NIB/NISH)                     Centers will be notified when restitution is ordered
  contractors.                                                by a court and where to book the collections. If a
                                                              debtor stops making payments, we will notify the
• Persistent claims coordination among regional con-          Department of Justice and then forward the claim to
  tracting officers, Treasury, and our Finance Centers        Treasury for collection cross-servicing and inclusion
  continues to strengthen our claims collection efforts.      in the Treasury Offset Program.

Non-Federal Accounts Receivable

                                                     As of                 As of
                                                  April 1, 2002      September 30, 2002          Difference

     Total Amounts Due GSA                        $22,031,650           $18,534,176             ($3,497,474)

     Amounts Delinquent                           $13,522,950           $13,110,933             ($ 412,017)

     Total Amount Written
     Off as Uncollectible
     Between 4/01/02 and
     9/30/02                                        $1,111,412



72    Semiannual Report to the Congress
                                    Appendix V–Reporting Requirements




The table below cross-references the reporting require-                       Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                        1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                              and the National Defense Authorization Act is also
addressed.     The information requested by the                               cross-referenced to the appropriate page of the report.



  Requirement                                                                                                                              Page

  Inspector General Act

     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34–35

     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . .47

     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42

     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .72

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .59




                                                                                                                     Office of Inspector General 73
                                       Notes




74 Semiannual Report to the Congress
Notes




        Office of Inspector General 75
                                       Notes




76 Semiannual Report to the Congress
Make
like
it's
your
money!

It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General's Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405


Office of Inspector General
U.S. General Services Administration
